<html>
<title> - HEARING ON LEGISLATIVE PRESENTATION OF VETERANS SERVICE ORGANIZATIONS AND MILITARY ASSOCIATIONS HEARING II THURSDAY, FEBRUARY 16, 2006 U.S. HOUSE OF REPRESENTATIVES, COMMITTEE ON VETERANS� AFFAIRS, Washington, D.C. The Committee met, pursuant to call, at 10:30 a.m., in Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding. Present: Representatives Buyer, Brown of South Carolina, Miller, Boozman, Filner, Brown of Florida, Snyder, Michaud, Herseth, Berkley, and Salazar. THE CHAIRMAN. Good morning. The Full Committee of the House Veterans� Affairs Committee, February 16, 2006, will come to order. I have an opening statement. Lane Evans has an opening statement. Mr. Reyes has an opening statement. Mr. Filner. MR. FILNER. May I go now? MR. CHAIRMAN. Well, Mr. Boozman does not have a</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON LEGISLATIVE PRESENTATION OF
VETERANS SERVICE ORGANIZATIONS AND MILITARY
ASSOCIATIONS HEARING II



THURSDAY, FEBRUARY 16, 2006

U.S. HOUSE OF REPRESENTATIVES,     
COMMITTEE ON VETERANS� AFFAIRS,
Washington, D.C.

	The Committee met, pursuant to call, at 10:30 a.m., in Room 334,
 Cannon House Office Building, Hon. Steve Buyer [Chairman of the 
Committee] presiding.
	Present:  Representatives Buyer, Brown of South Carolina, Miller,
 Boozman, Filner, Brown of Florida, Snyder, Michaud, Herseth, Berkley, 
and Salazar.
 
	THE CHAIRMAN.  Good morning.  The Full Committee of the House
 Veterans� Affairs Committee, February 16, 2006, will come to order.  I 
have an opening statement.  Lane Evans has an opening statement. 
 Mr. Reyes has an opening statement.  Mr. Filner.
	MR. FILNER.  May I go now?
	MR. CHAIRMAN.  Well, Mr. Boozman does not have a -- 
	MR. FILNER.  I have a -- 
	MR. CHAIRMAN.   -- written opening statement.  Three of us have 
a written opening statement which we would like to submit for the 
record.
	[The statement of Chairman Buyer appears on p. 50]
 
	[The statement of Mr. Evans appears on p. 54]
 
	[The statement of Mr. Reyes appears on p. 62]
 
	THE CHAIRMAN.  And we�re anxious to hear from the first panel.  
Mr. Filner.
	MR. FILNER.  Thank you, Mr.  Chair.  We would like to welcome 
all those who are here this morning.  The Democrats have appointed a 
new member, Congressman John Salazar from Colorado.  We will welcome 
him when he arrives.
	So, we thank you.  I think we�re in a very difficult situation 
that, having read your advanced testimony, is clear to all of you also.
  The budget is clearly inadequate.  If you just look at the surface, 
it fails to meet the health care needs of our nation�s veterans by 
almost one and a half billion dollars.
	If you look at the games that are played in the budget where 
it says there are going to be legislative proposals which will bring 
in almost a billion dollars, it over counts the efficiencies supposedly
 brought to the VA.  It double counts certain entries.  There are 
savings that supposedly come about because of third party collections.  
All these are games.  And we should be angry about these games because 
they are being played with the veterans who have given us our democracy.
	They are budgetary games that leave the veterans short by about 
over four billion dollars this year.  Over four billion dollars to 
treat the health care needs and to meet the benefits of our nation�s 
veterans.  I think that is disgraceful.  I think it should be 
protested around the nation.  I think you need to go back to your 
grassroots.
	The Chairman changed the rules this year so we don�t have the 
grassroots in these meetings.  The joint Senate/House meetings have 
been cancelled.  I think it�s because the participatory nature of 
those meetings where veterans from around the country feel they are a 
part of the process is not wanted, even as the Congress is talking 
about greater transparency for some of the reforms we may do this year.
	So you need to go back to your members and say engage in this 
process because you have been cut off from participation in these
 hearings. We have to find new ways for them to participate, whether 
it�s going to members� offices, or maybe surround the Capitol until a 
budget that�s worthy of veterans gets passed.  I think we have to find
 creative ways to bring your membership into this process.
	Because Congress members respond to your members, but they have 
to know what is going on.  They have to know what this four billion 
dollar short-fall means.  They have to know what it means for their 
claims, which are backlogged, and that people coming back from Iraq 
and Afghanistan have to wait months and months for their first medical
 appointment.  Some cannot get a dental appointment.  We already have 
a freeze on nurse hirings in some of the hospitals around the nation.  
So no matter what the administration says in its spin, these are not 
good times.  We can change this if you bring in your membership to the
 discussions.
	So let�s do that and let�s eventually produce a budget that is 
worthy of our veterans.  Two things I think come through from a lot of 
your testimony.  One is the so-called assured funding, mandatory 
funding.  We are going to argue about whether the shortfall is four 
point two billion or three point six or one point three.  We shouldn�t 
even have those arguments.  There should be mandatory (assured) funding 
for the health care of our veterans.
	In addition, the biggest third party payment that is still lying 
on the table is for medicare.  We have had bills in the past called 
"medicare subvention."  We ought to pursue that in a very much more 
focused way this year.  So we are prepared to do that and I thank the 
Chair.  Would you just give me one minute to introduce our new member?
	John Salazar, is the newest Democratic member of our Committee.  
His district is in rural Colorado and is home for more than 70,000 
veterans.  He served, himself, in the U.S. Army from 1973 to �76 and 
has a son in the National Guard.  So, Congressman, your understanding 
of veterans� issues is grounded in your professional and personal 
experience.
	In fact, in the Colorado State House, he was awarded "Legislator
 of the Year" by the United Veterans� Committee of his state.  And as a 
Member of Congress, he was selected to lead the Congressional Hispanic 
Caucus Veterans� Task Force, which was created to recognize the 
contributions and unique needs of Hispanics in our Armed Forces.  We 
have a lot of work to do, John.  I am certain that you will hit the 
ground running and contribute to our progress.  Welcome to this 
Committee.
	MR. SALAZAR.  Thank you.
	THE CHAIRMAN.  Welcome.  Thank you.  We would like to introduce 
the first panel.  Ms. Rose Lee is the Legislative Director for Gold
 Star Wives.  Ms. Lee is also the current president of Potomac Area 
Chapter of Gold Star Wives.  She is the widow of Colonel C.M. Lee, 
United States Army.  He served in Korea and in Viet Nam.  He died on 
active duty overseas in 1972.
	Started in 1945 and granted a federal charter in 1980, the 
Gold Star Wives focuses on issues relating to the spouses and children
 of those killed in action.  And it�s good to see you once again.
	Also here representing the Fleet Reserve Association is Joseph 
L. Barnes, Retired Navy Master Chief.  Mr. Barnes received numerous 
awards and citations.  He joined FRA in 1993 as the editor of "On 
Watch".  He was selected to serve as the Fleet Reserve Association�s 
National Executive Secretary in September 2002.  FRA supports America�s 
future leaders by annually awarding more than 80,000 scholarships to 
deserving students.  FRA scholarships are awarded to FRA members, their
 spouses, children, and grandchildren.  Welcome.
	MR. BARNES.  Thank you.
	THE CHAIRMAN.  Also next is Chief --  formerly Chief Master 
Sergeant, James E. Lokovic.  Did I pronounce it correctly?
	MR. LOKOVIC.  Lokovic.
	THE CHAIRMAN.  He is representing the Air Force Sergeants 
Association as the Association�s Deputy Executive Director and the 
Director of Military and Government Relations.  Chief Lokovic served 
25 years in the United States Air Force in numerous state side and 
overseas locations.  His last assignment was on the Air Force staff 
as Chief of Enlisted and Professional Military Education.  He has 
worked for the Association since January 1994.  The Air Force
 Sergeants Association and Airmen Memorial Foundation join together 
annually to conduct a scholarship program to financially assist 
undergraduate studies of eligible and dependent children of the Air 
Force, Air Force Reserve Command, and Air Guard Enlisted Members and, 
those of Active Duty, Retired, and Veterans status.  Thank you for 
joining us.
	Representing the Retired Enlisted Association is Ms. Holleman.  
She currently serves as the National Legislative Director of the 
Association.  Before joining TREA she was the Washington liaison for 
the Gold Star Wives of America.  And Ms. Holleman focuses on health 
care, financial, and benefit matters for military retirees, veterans, 
and active duty, the National Guard, and Reserves, and all the families 
and survivors.  Welcome.
	We also then have Colonel Bob Norton, Retired.  He is
 representing the Officers Association of America.  Colonel Norton 
enlisted as a private in the United States Army in 1966, completed 
Officer Candidate School, was commissioned Second Lieutenant in the 
Infantry in August 1967.  He served one tour in Vietnam as a platoon 
leader supporting the 196th Infantry Brigade in ICorps in Civilian 
Affairs.  We can still use you, you know?
	In 1969 he joined the United States Army Reserve.  Colonel 
Norton volunteered on active duty in 1978 and was among the first 
group of USAR officers affiliated with the Active Guard and Reserve 
AGR program on full-time duty.  He served two tours of duty at the 
Office of Secretary of Defense.  Colonel Norton retired in 1995.  With 
the stresses on civil affairs, it�s pretty real.  Ms. Lee, we will 
open with you.  You are recognized for ten minutes.

STATEMENTS OF ROSE LEE, LEGISLATIVE DIRECTOR, GOLD
	STAR  WIVES

	MS. LEE.  Thank you so much, Mr. Chairman.  Good morning to 
all of you, Mr. Chairman, and Members of the House Veterans� Affairs
 Committee.  Thank you for the opportunity to testify before you on 
behalf of all of the Gold Star Wives.  My name is Rose Lee.  I am a 
military widow and I am here as Chair of Gold Star Wives Legislative
 Committee.
	Behind me is Ms. Smith and in the audience are some Gold Star 
Wives also.  Gold Star Wives was founded in 1945 and is a 
Congressionally-chartered service organization comprised of surviving 
spouses of military service members who died on active duty or as a
 result of service-connected disabilities.
	I will present to you the collective goals of the Gold Star 
Wives with the hopes that they will alert you to certain discrepancies 
and inefficiencies that you may be able to alleviate in your 
deliberations this year.
	Too often we feel that survivors, widows and orphans, if you 
will, are overlooked though they shouldn�t be.  A couple of years ago I 
took this snapshot of the VA�s mission statement that�s on the VA 
building and it reads "To care for him who shall have borne the battle 
and for his widow and his orphan."  By Abe Lincoln.
	Then just recently I attended the VA budget briefing.  This 
is their handout.  I was glad to hear them say that they convinced OMB 
and got the budget increased for 2007.  What bothered me is that no 
where in the briefing handout did the words "survivors" or "widows 
and orphans" appear.  We seem to get lost in the shuffle.  We hope 
that these oversights will be changed and we are not forgotten.
	I do want to thank the Members of this Committee and the staff
 for your continued support of programs that directly support the 
well-being of our widows and their families.  If there is one message
 I could leave with you today it is that there is never enough 
communication.  Yes, there are casualty assistant officers who have 
a difficult mission in a difficult time, but they don�t always know 
about benefits and entitlements managed by the VA or DOD.
	Gold Star Wives sponsors a chat room for many widows following 
9/11.  New widows joined this chat room and asked questions about 
benefits.  Our widows need our help.  We need to examine the 
coordination process among agencies more closely and work hard to 
prevent these widows and their children from encountering gaps in 
identifying benefits.
	The VA and DOD have co-hosted meetings that focus on 
improving outreach to surviving family members.  VA has created a 
survivor�s website that offers communication channels for all service 
widows and widowers.  Often widows do not even know where to turn 
simply to identify their benefits.  We participate in this outreach 
and applaud these efforts.  However, to enhance these efforts Gold 
Star Wives asks your serious consideration of creating an oversight 
office for survivors across the VA and DOD to assure improved 
delivery of benefit information and benefits to survivors.
	Unfortunately, the National Defense Authorization Act for 2006 
did not include eliminating the offset to the Survivor Benefit Plan by 
the Dependency and Indemnity Compensation.  We recognize that you must 
work with your colleagues on the Committee on Armed Services to correct 
this issue.
	We thank Representative Henry Brown for introducing HR 808, 
sir.  And we encourage Congress to provide this real relief for our 
military surviving spouses now.  But to illustrate the bad publicity 
that this issue is getting, the New York Times OpEd published an article 
by Attorney Dan Shay on February 13, 2006, just this past week, in which 
he wrote, "My brother, Lieutenant Colonel Kevin Shay was killed by a 
rocket attack in Falluja on September 14, 2004.  He knew the risks when 
he joined the Marine Corp in 1989.  But he also thought if anything 
ever happened to him the United States Government would take care of 
his wife, Amy, and his two children.  Sadly that�s not the case."  
Dan Shay went on to describe the problem which prevents his brother�s 
wife from receiving both SBP and DIC without offset.
	Current law provides for remarriage at age 57 to retain VA 
benefits.  For those who remarried before that law was enacted, there 
was a one year period to apply for reinstatement.  Lowering the age to 
55 would bring this benefit in line with rules for SBP and other 
federal survivor programs and opening up the reinstatement period 
with renewed outreach efforts would make survivors aware of their 
eligibility.
	We thank Representative Michael Bilirakis for introducing 
HR 1462, which will make equitable changes in the law.  There are 
inequities among several payments for child survivor that need 
immediate attention.  The SBP child option applies now only to
 survivors of deaths after November 24, 2003.  We seek this benefit 
to be linked to October 7, 2001, the beginning of the Global War on 
Terror, as are other survivor benefits.
	Similarly, the additional monthly $250 child DIC payment per 
family only applies to survivors of deaths after January 1, 2005.  
This too should be linked to October 7, 2001.  We thank Representative 
Michael Michaud for introducing HR 1573, which provides for this 
additional payment to families.  It makes no sense, however, that 
the survivors of those who died first should be prohibited from 
accessing a benefit given to survivors of those who died later in the 
same war.
	There is another grievous oversight concerning the $250 child 
DIC.  The program evaluation of benefits study recommended that 
surviving spouses with dependent children receive the $250 for five
 years instead of the two years that is currently provided.  An amount 
should be indexed for inflation to avoid a devaluation of the benefit.
	Unfortunately, these recommendations were ignored.  The $250
 child DIC is the only DIC benefit that doesn�t receive the cost of 
living adjustment.  We wish to thank those of you who did try to 
include a COLA in legislation for the $250 child DIC.  But, please, we 
ask you to continue to work on it until it is given the rightful COLA.
	CHAMPVA doesn�t carry with it a dental plan.  Gold Star Wives 
seeks for widows and all CHAMPVA beneficiaries the ability to purchase 
a voluntary dental insurance plan similar to the TRICARE program for 
military service retirees� dental care.  Gold Star Wives recommend 
Congress fix this and provide a dental plan for CHAMPVA beneficiaries.
	We request Congress to review how the DIC rate is established, 
which is currently a flat rate of $1,033.  The SBP is calculated at
 55 percent of retired pay as if the member had retired for total 
disability on the date of death.  We recommend that the DIC be
 calculated in a similar manner at 55 percent of the disabled veterans 
100 percent disability compensation.  We believe this would help 
alleviate growing financial difficulties of widows from wars prior to 
this conflict who are receiving only DIC.
	In conclusion, we do not want our widows to be forgotten
 whether they are experiencing their losses in the Global War on 
Terror over the past five years or whether they are members of the 
so-called Greatest Generation and experienced their loss many years 
ago during World War II.
	I thank this Committee for using this hearing as one more 
avenue of awareness and education and for giving me an opportunity to 
share my thoughts and the goals of Gold Star Wives.  We will be happy 
to work with the Committee on any of these initiatives.  Thank you.
	THE CHAIRMAN.  Ms. Lee, I should note that your boss walked 
in while you were testifying.
	MS. LEE.  Oh, I�m glad she did.  Our boss is our national 
president, of course, and her name is Joan Young and she is from 
Florida.  I�m glad she�s here.  Another Gold Star Wife.  We have a 
couple of young widows also from this current Global War on Terror 
and one of them is Vivianne Wertzel and another young one is with 
one of the other groups and her name is Jennifer McCullum.  And I 
do appreciate them being here as well.
	THE CHAIRMAN.  Thank you.  Well let me have an opportunity 
to tell your boss that we enjoy working with Ms. Lee.
	[The statement of Rose Lee appears on p. 72]
 
	THE CHAIRMAN.  Mr. Barnes.

STATEMENT OF JOSEPH L. BARNES, NATIONAL EXECUTIVE
	SECRETARY, FLEET RESERVE ASSOCIATION, ACCOMPA-
	NIED BY CHRIS SLAWINSKI, NATIONAL SERVICE OFFICER,
	AND JOHN DAVIS, DIRECTOR OF LEGISLATIVE PROGRAMS

	MR. BARNES.  Thank you, Mr. Chairman.  It�s a pleasure to be 
here this morning.  Greetings to the distinguished Members of the 
Committee.  I appreciate the opportunity to present FRA�s 
recommendations on the Fiscal Year 2007 Department of Veterans� 
Affairs Budget on behalf of Edgar Zerr, FRA�s National President.
	Accompanying me today are Chris Slawinski, our National 
Service Officer and John Davis, FRA�s Director of Legislative Programs.
	FRA�s top legislative agenda issue is full funding and access 
to health care for all beneficiaries in the DOD and VA health care 
systems.  This issue is important to every member of our association, 
their families, and survivors.
	FRA appreciates the increased funding in the Fiscal Year 2007 
budget, particularly for VA health care and other key accounts.  This 
marks significant progress over last year�s budget request and follows
 emergency supplemental appropriations that were necessary at the end 
of the last fiscal year.
	Our members are very concerned about the discovery of inaccurate
 projections and faulty models used to prepare previous budgets, and GAO
 findings about the methods used to project management efficiency 
savings.  FRA is also concerned about the assumptions used in preparing 
the budget.  The budget request assumes Congressional approval of a 
$250 enrollment fee and significantly higher prescription co-pays for 
priority seven and eight beneficiaries.  As the distinguished Committee 
knows, this is not a new proposal and FRA strongly opposes the 
establishment of these increases.
	VA health care funding must be adequate to meet the needs of 
the growing number of veterans seeking services from the VA.  Many from
 Operations Enduring Freedom and Iraqi Freedom and the budget must be 
based on realistic and sound projections.
	Military retirees pay an annual enrollment fee for TRICARE 
prime enrollment and some believe that a similar fee, detailed above, 
should be authorized for access to VA health care services.  The 
TRICARE fee assures access to DOD health care services while priority 
seven and eight veterans, who would pay the VA enrollment fee if 
approved, will remain at the bottom of the priority list for VA 
health care benefits and still be forced to wait long periods for 
access to care.
	As part of your views and estimates to the House Budget 
Committee, FRA urges the Committee to support budget allocations to
 eliminate the need for the enrollment fee, the prescription co-pay 
increase, and vital funding for other important VA programs including 
medical research.
	The Association also appreciates Ranking Member Evans� 
testimony before the Budget Committee on Funding for Health care and 
other VA Benefits.  FRA believes that adequately funding health care 
and other programs for veterans, their families and survivors, is part 
of the cost of defending our nation and ensuring our freedoms.
	The VA suspended enrollments for priority eight -- priority 
group eight in 2003.  And FRA urges that sufficient resources be 
authorized to allow resumption of the enrollment process for all 
veterans.
	FRA supports the authorization of medicate reimbursements as 
an alternative to the enrollment fee and higher pharmacy co-pays.  A
 significant number of veterans enrolled in the VA health care system 
have paid into medicare, yet the VA is not authorized to receive
 reimbursements for providing services to these veterans.  Why this 
has not been authorized is perplexing to our membership and FRA urges 
that this concept be thoroughly researched.
	Injured combat veterans from Iraq and Afghanistan should be 
immediately processed into the VA system.  This is also important for
 personnel retiring from military service with service-connected 
disabilities.  Electronic medical records, plus expanded and improved
 coordination between DOD and VA will ensure seamless transitions for
 these personnel.
	FRA strongly supports adequate funding for medical and 
prosthetic research and is concerned that the budget for these -- 
about the budget for these programs and that it relies on partnering
 initiatives with other institutions.  Ensuring sufficient funds to 
maintain VA�s world-class research program is very important.
	Mr. Chairman, our members appreciate your support to modernize 
and enhance the MGIB to include much needed changes to guard and 
reserve benefits.  FRA believes that Congress should raise MGIB 
benefits to the average cost of a four year public college or 
university education.  Unfortunately benefits now cover only about 
60 percent of current tuition expenses at these institutions.
	FRA also believes that Congress should restore and sustain 
education benefits to members of the selected reserve to 47 percent 
of basic benefits as authorized when the MGIB was established in 
1984.  The reserve MGIB should also be transferred from Title 10 to 
Title 38 to allow better accountability and improved processing.
	There are thousands of senior enlisted personnel who entered 
service during the Veterans� Education Assistance Program period or 
VEAP era from 1977 to 1985.  They are seeking an opportunity to sign 
up for the MGIB and these personnel include about 14,000 Navy personnel 
and nearly 5,000 Marines.  FRA urges authorization of an open enrollment
 period to provide an opportunity for them to sign up for the MGIB.  
This is a major issue within the career senior enlisted communities.
	Finally, some additional priority concerns from our members. 
 FRA continues its advocacy for full concurrent receipt of military 
retired pay and VA disability payments for all disabled retirees and
 appreciates Vice Chairman Representative Michael Bilirakis� leadership 
on this issue.
	The Association supports legislation to shift the effective 
paid-up date from 2008 to 2006 for military survivor benefit plan 
participants who have paid premiums for 30 years and are 70 years of 
age.  Additionally, the Association supports legislation that would 
authorize the elimination of the SBP offset to DIC.
	And last, FRA strongly supports sorely needed reform of the 
Uniformed Services Former Spouses� Protection Act.  Mr. Chairman, in 
closing allow me to again express the sincere appreciation of the
 Association�s membership for all you, the Members of the Veterans� 
Affairs Committee, and the professional staff do for our nation�s 
veterans.  Our legislative team stands ready to assist you and your 
staff at any time and I stand ready to answer any questions you may 
have.  Thank you.
	[The statement of Joseph L. Barnes appears on p. 82]
 
	THE CHAIRMAN.  Mr. Lokovic.

STATEMENT OF CMSGT JAMES E. LOKOVIC (RET.), DEPUTY
	EXECUTIVE DIRECTOR, AIR FORCE SERGEANTS ASSOCIA-
	TION

	MR. LOKOVIC.  Mr. Buyer, Mr. Chairman, Mr. Filner, and 
especially a long-time friend, absent member and former Air Force 
Sergeant, Mr. Bilirakis, and Members of the Committee.  Good morning.  
I am honored to represent the leadership of the Air Force Sergeants
 Association and its 130,000 members. This morning I look forward to 
working with the Committee and throughout the year as we work toward 
the fiscal year 2007 budget.
	Mr. Buyer, I congratulate you and the other Committee Members 
for your service to our nation.  You are men and women on both sides 
of the aisle that don�t have to do this.  And yet you step up to do it 
to fulfill this nation�s commitment to those who care enough to serve, 
and I salute each of you.
	This morning I want to speak to you on behalf of those who 
can�t get involved in the policy that governs VA programs and who are 
only indirectly involved in implementing them, currently serving 
members of our Armed Forces.  Having listened to other panels before 
this Committee and having spoken with others who will appear before you
 today and in the future, we too are concerned about some of the 
primary focus items that you are working on, such as full VA health 
care funding, seamless transition efforts, and the accelerated 
adjudication of the claims process.
	At this point let me mention simply one item that we mentioned 
in our written statement: an example of the need to have a good solid 
handoff between the Department of Defense health care system and the VA
 health care system.  And the example we gave was of an Airman who was 
wounded during the course of military duty, but was able to stay in 
until retirement.  He went through numerous medical operations and 
procedures and then when applying for VA transition benefits after he
 separated ended up having to redo all of these tests again and all of 
the procedures again, wasting taxpayer�s money.  We have seen great 
promise in this area, and we need to continue working on the seamless 
records and the handoff between DOD and the VA.
	You have received our full written statement which I know you 
will consider.  However, this morning the remainder of my remarks will 
be restricted to educational benefits, specifically the Montgomery GI 
Bill, something appreciated by all commissioned and enlisted alike, and
 important to their well-being.
	The Montgomery GI Bill is a program that is generous in its 
benefit but which is administered using rules that are unfair to young 
service members.  It�s on their behalf that I ask you to listen to them 
and to make some changes in policy and administration that would cost 
very little but that would be good for those who serve for the military
 services themselves and for the nation as a whole.
	This morning I would assert that the Montgomery GI Bill is a 
benefit that is poorly administered and rarely made available in full. 
 In fact many aspects of the program discourage its use.  Fortunately 
this Committee can greatly improve the program without significant 
additional obligation of funds.
	One problem is the enrollment payroll reduction procedure is 
illogical and drives many service members away.  Young service members
 are given a one-time irrevocable decision to enroll in the Montgomery 
GI Bill at basic military training.  They are automatically enrolled 
unless they identify themselves to the TIs and say they don�t want to 
be in the program.  This is at a point that military members are making
 relatively little money to begin with.  Simply put, their choice is do 
I want to sacrifice $100 of pay each month for the first 12 months of 
my career?
	While this policy of payroll avoidance may be a boon for the 
Department of Defense, it�s a non-sensible way to offer this important 
program which can affect the rest of their lives.  And this is important
 because many members simply cannot afford the monetary sacrifice at 
that point of their careers when they are being paid relatively little.
  And many members turn down enrollment because they just joined the 
military, deciding to forego education for the time being.  And many 
of them later regret the decision and tell us that they would enroll 
if given a second opportunity.  However, the program as currently
 administered does not offer a second chance.
	Non-commissioned members in particular turn the program down 
in fairly great numbers, three to five percent each year, since they 
pay twice as much proportionally as commissioned officers.  I don�t 
make this point to point out commissioned officers versus enlisted or
 otherwise, but simply to point out that it all comes out during the 
first year.  And we could clearly fix that by allowing all enrollees, 
whether commissioned or enlisted, to enroll in the program at any 
point during the first two years and to stretch out the period of the 
payroll deduction to a two-year period.
	I can�t tell you, Mr. Chairman, how many young airmen tell us 
later on that they regret having made the decision they made at basic 
training but feeling that they were forced into doing so.
	Current service members are plagued by old policies.  Those who 
turn it down, as Mr. Barnes said, the old Veterans� Educational 
Assistance Program, absolutely deserve an opportunity to enroll in
 the Montgomery GI Bill.  VEAP was a poorly counseled, relatively 
inadequate program.  I must note that so many military members 
declined enrollment in the old VEAP program, perhaps hundreds of 
thousands, that there are still over 15,000 serving in the Air Force 
alone, and Mr. Barnes mentioned a couple of the other services.  
Probably around 50,000 in all services are still on duty. And are now 
getting ready to end their careers with no transitional education 
benefit.
	Representative Camp�s HR 269 and a couple of other bills would 
correct this situation.  According to Mr. Camp�s staff during the 108th
 Congress the CBO scored this program at $170 million over a ten-year 
period for all eligible members to go into this program.
	As you might expect, since then the pool of eligibles is 
declining daily.  The fix would be to support this legislation and open 
all enrollees or perspective enrollees, commissioned and enlisted 
alike, an opportunity and open window to enroll in the Montgomery GI
 Bill.  Certainly it would help a lot.  We believe we should give 
these patriots a chance to get into the GI Bill.  Goodness knows that 
they have certainly earned it.
	Another problem is the GI Bill benefit is not the same for 
all enrollees.  Matters such as the ability for the buy-up option where 
you can pay a little bit more and get additional coverage only applies 
to those that came in under the original bill and not those that 
transitioned under two earlier windows for those that were once 
enrolled in the VEAP program.
	Another problem is the GI Bill has such restrictions that the 
government budgets each year based on the belief that less than half 
of the military members will ever use their GI Bill.  And that is true
 because of the restrictions on its use.  For example, while on active 
duty it cannot be used for the cost of books, tuitions, and fees.  
It�s parceled out on a monthly basis and is insufficient to cover the 
costs for advanced, accelerated, or laboratory courses.
	A fix to that would be to allow military members to spend 
portions of their GI Bill benefit as they need it.  They earned the 
benefit, they ought to be able to spend it as they need it as they use
 up the portion that they have, the amount that they have.  There should
 be no artificial limits on which aspects of education they can spend 
the money on.  And what a great military service incentive this would 
be.
	Another problem is that under the -- 
	THE CHAIRMAN.  Mr. Lokovic.
	MR. LOKOVIC.  Yes.
	THE CHAIRMAN.  I�m sorry.  We have a vote and a possible 
pending vote thereafter.  How many minutes do you have left?
	MR. LOKOVIC.  About one.
	THE CHAIRMAN.  All right.  Let�s go ahead and complete your
 testimony and then we will break.  We have about nine minutes to the 
vote, so please proceed.
	MR. LOKOVIC.  Okay, sir.  The fix under the program would be 
to allow members to transfer a portion of their benefits after the 
12th year of service.  My point here that I was going to develop is 
that transferability can be a government incentive, something smart 
for both the government and the member if you make it at a career 
point.
	And the last point was made by Mr. Barnes.  And that is that 
to tie the value of the program to educational inflation without going 
into details.  I ask the Committee to seriously consider these items 
that I have mentioned in my testimony.  Most of them could be 
implemented with minimal or no cost to the American taxpayer.  But 
they would take large steps toward making the program more user 
friendly, more equitable, and of more benefit to the nation.  And 
again, Mr. Chairman and Committee Members, thank you for your service 
and for this opportunity to address the Committee.
	[The statement of CMSGT James E. Lokovic, (Ret.) appears on 
p.  95]
 
	THE CHAIRMAN.  Thank you.  The Committee will stand in recess. 
 We should be back by 11:30, I hope.  We will stand in recess.
	[Recess.]

STATEMENT OF DEIDRE PARKE HOLLEMAN; LEGISLATIVE
	DIRECTOR, THE RETIRED ENLISTED ASSOCIATION

	MS. HOLLEMAN.  Thank you for returning.  Mr. Chairman, 
Mr. Filner, it is always an honor for TREA to speak on the issues and 
concerns facing today�s and tomorrow�s veterans and their families.
	As we all know this is a crucial time for our country.  We are 
waging a war on terror both at home and abroad.  There are additional 
service members deployed in numerous hot spots throughout the world.  
And the veterans who have protected us throughout history in both hot 
and cold wars are getting older and in more need of their nation�s help.
	TREA is a nationwide VSO whose members have served a career in 
the enlisted ranks of our military or are doing so at this time.  The 
services and benefits that are the provenance of the Department of 
Veterans Affairs and this Committee are crucial to them so that they 
will be able to live the life in their retirement years that they have 
so justly earned.
	TREA is grateful to everyone who has worked to create these 
benefits and to make sure that they are implemented in an efficient and
 fair way.  We must start with the statement that TREA was pleased and
 relieved at the realistic top-line figure that the Administration put 
in the budgetary request for VA health care this year.  It is a far 
more sensible and workable amount then what had been previously requested.
	We are also pleased that the President has exempted the VA from 
his across-the-board cuts then most of the federal government is dealing 
with.  During this time of increased medical needs and returning 
veterans more, not less, focus is needed on the VA�s health care system.
	Of course we do not agree with all of the Administration�s
 proposals.  For the last several years TREA has been firmly opposed 
to the proposed imposition of a $250 enrollment fee for veterans 
presently enrolled in category seven and eight.  And we are opposed 
to it again this year.  This proposal is unwise and unfair for several
 reasons.  First of all this was not the veterans were promised when 
the enrolled at the urging of the VA.  Secondly, veterans in seven and 
eight do not have priority to be seen or access standards for care. 
 Therefore, they are the equivalent of space available.  There is no
 guarantee.
	However, everyone in this room knows that if you start 
charging a yearly fee and beneficiaries will predictably and rightful 
demand the care that they are paying for.  Rather then lessening the 
work requirements of the VA it will most likely increase them.  The 
VA predicts that 325,000 beneficiaries will leave category seven and 
eight in the coming fiscal year.  We presume that that number is 
primarily based on the expectation that many present enrollees will 
drop out rather then pay the yearly fee.  That is not an appropriate 
way to lessen one�s case load.  And we believe the ones who will 
remain will be predictably more demanding.  So it is not an effective 
way either.
	Additionally, the VA states in their proposal that they expect 
or hope to collect Three Billion Dollars in third-party insurance 
claims, OHI.  TREA is doubtful, as we know the Chairman is, that they
 will be able to reach that goal.  In the past they have not been very
 successful in collecting private insurance claims.  But if this is a 
serious goal for them, then beneficiaries in category seven and eight 
should be the main source of such insurance.  These veterans cannot 
depend on the VA for all their health care and so are much more likely 
to have plans that the VA may look to for collections.
	Numerous people, both on this Committee and at the VA, believe 
the veterans chose to enroll in category seven and eight to get the 
drug benefit.  That is correct.  The new medicare part D benefit, once 
it settles down, should cause a drop in enrolled veterans looking to 
obtain service.  The new drug plan will have several advantages for 
them.  They can use their civilian doctor�s script.  They can have 
them filled near their home.  They do not have to deal with long
 waits.  If we are correct, the concern about the costs of category 
seven and eight should subside without unfair and unpopular steps 
being taken.
	TREA is also firmly against the Administration�s proposal to 
raise the pharmacy co-pay to $15, a 30-day script for category seven 
and eight.  Last year the VA raised it�s co-pay from $7.00 to $8.00 
and I assure you it caused great consternation at many of members.  
These veterans are not being petty or cheap.  They are on fixed 
incomes and many of them need numerous daily medications.  TREA 
assures you that practically doubling the co-pay would be disastrous 
to many of our members.  We hope this Committee will once again oppose 
this proposal.
	The VA is, as you have heard and read before, tasked not only 
to care for the he who has borne the scars of battle but also his
 widow and orphan.  TREA was very pleased that Congress increased 
SGLI to $400,000 as well as increasing the death gratuity to $100,000 
last year for our recent widows.  Thank you so much for these 
improvements.  But as you well know, TREA and all the members of the 
coalition and the alliance last year worked hard to try and end the 
SBP/DIC offset that Ms. Lee spoke of.
	Of course, we are well aware that this is not the Committee 
of jurisdiction.  But we know of your focus and concern for military 
widows.  We also know that many of you are also on the Armed Services 
Committee as well as this Committee.  Therefore, we urge all of you to
 convince your colleagues that this is the time to finally correct 
this unfair situation.
	Although we know it is a great deal to ask TREA also wants 
this Committee to take on more work.  It is, as my colleagues have 
said, it is crucial to look towards improving and modernizing the 
Montgomery GI Bill.  The select reserve Montgomery GI Bill must keep 
up with the improvements and modifications that you have been adding 
to the active duty program.  But that has not happened.  We are 
expecting more and more from a reserve component but we have not 
improved this program.
	TREA believes that this is due to the split of the program 
between Title 10 for the reserve components bill and Title 38 for the 
active duty program.  If you had jurisdiction of both programs under 
Title 38 coordination would be much easier and changes allowing the 
guard and reserve to continue to use their benefits after leaving the 
service would become more likely.  The reserve program is a stepchild 
in Title 10.  It would find its proper home here.
	As has been suggested by the representative from MOAA in his 
written testimony, we still have a long way to go before we reach our 
goal of a seamless transition from the status of active service to 
that of veteran.  The VA has been recently rightfully praised for its 
new electronic medical records program.  And DOD is now moving out 
their new ALHTA program.  But we are still concerned as to whether 
these programs will be able to talk to each other.  It is crucial that 
they do and TREA hopes that you will continue to push to require the
 technological improvements needed to improve health care for the 
entire life of our servicemember.  We must also continue to strive for 
a single and comprehensive exit examination.  This will be a great help 
for both departments and even more of an advantage for the 
servicemember.
	There are many more suggestions in our written testimony and we 
would be grateful if you would consider all of them.  We all share a 
love and admiration for our servicemembers, our veterans, our military
 retirees and their families and survivors.  Because they have served 
and dared we can live in freedom and argue public policy issues.  TREA 
is grateful for all the efforts and time the Members of this Committee 
and their staff have dedicated to making the VA the best that it can 
be.  We believe that adoption of our suggestions would make its 
service even more effective.  We thank you for your time and 
attention.  I would be honored to try and answer any questions you 
might have.
	[The statement of Deidre Parke Holleman appears on p. 109]
 
	THE CHAIRMAN.  Thank you very much.  Colonel Norton.

STATEMENT OF COLONEL ROBERT F. NORTON, USA (RET.),
	DEPUTY DIRECTOR FOR GOVERNMENT RELATIONS, MILI-
	TARY OFFICERS ASSOCIATION OF AMERICA

	COLONEL NORTON.  Thank you, Mr. Chairman, Mr. Filner.  On 
behalf of the 360,000 members of the Military Officers Association 
of America I am very pleased with this opportunity to appear before 
you today to present our legislative agenda for veterans.
	Mr. Chairman, before I began though,  -- I know Vice Chairman
 Bilirakis is not here,--but I would like to add my voice for the 
public record to thank him in particular for his years of service to 
this nation both in uniform as well as a Member of this Committee and 
a Member of Congress.  "Big Mike" Bilirakis has been an unbelievable 
leader and advocate for veterans over a long career.  He was for many,
 many years the junkyard dog on concurrent receipt.  And he was 
relentless in pursuing that goal when no one else even considered that
 it could ever get done.  So I just want to say to him, even though he 
is not here, thanks for his great service to the Committee and to the 
Congress of the United States.
	I would ask that my prepared statement be entered in the 
official record of this hearing.
	THE CHAIRMAN.  Hearing no objection, so ordered.  Do all 
members of the first panel have written statement, they would like to 
submit for the record?  All answered in the affirmative.  Hearing no
 objection, so ordered.
	COLONEL NORTON.  MOAA appreciates the Committee�s commitment to
 overhauling the VA�s methodology for projecting resource requirements 
for the VA health care system.  The VA continues to understate demand,
 including demand from the more than half million veterans of the War 
on Terror in addition to active duty veterans.  Those half million are 
from the National Guard and reserve.
	Two weeks ago a new GAO report concluded that the VA�s 
projections for so-called management efficiencies are based on 
false premises.  In effect, the GAO is saying that the VA uses ENRON
 accounting techniques to build some of its cost-saving projections. 
 MOAA fully supports this Committee�s intention to oversee reform of 
the nuts and bolts of the VA�s health care budget building process.
	For the coming fiscal year MOAA is pleased to see a 
significant increase in the medical services budget.  This is an 
important first step in matching resources to the rising demand 
for care.  MOAA continues to support the President�s task force 
report recommendation that the VA health care system should be fully 
funded either my mandatory means or by any other means that will 
accomplish the objective.
	MOAA continues its opposition to proposed user tax fees for 
certain veterans in priority groups seven and eight.  And we 
recommend that Congress again reject them for the fourth year in a 
row.  A nation that spends $2 billion a week to prosecute the war 
should assure the small minority of citizens who defend us against 
terror that they should not have to pay for their access to VA care.
	Mr. Chairman, MOAA greatly appreciates the Committee�s 
leadership in pressing the VA and the Department of Defense in 
accelerating accomplishment of seamless transition initiatives. 
 Congress needs an aggressive Committee for seamless transition 
and we applaud you for taking on this very challenging task.
	Seamless transition may be a buzzword for some, but it has 
deadly serious consequences for those who go into harms way, our 
future veterans.  At the most recent meeting of the Veterans� 
Disability Benefits Commission Army Captain Marc Giammatteo told the 
story that speaks to the heart of this issue.  After undergoing 30 
surgeries at Walter Reed to repair his severe wounds from combat he 
took convalescence leave in his home town.  While there he experienced
 a medical problem with his surgery and attempted to check into the 
local VA facility.  There he was turned away.  VA officials said that 
they couldn�t treat him since he was on active duty.
	Seamless transition is not just about computers talking to 
each other and abstract plans and policies, but about our nation�s 
volunteers during a very critical moment in their lives as they 
transition from active military service into veteran status.  Getting 
this right, Mr. Chairman, has enormous implications for future health 
care and benefits delivery in the VA and for the Department of Defense 
as it prepares our warriors to go into harms way.
	DOD recently announced the fielding of its new electronic 
medical record system known as AHLTA that my colleague Ms. Holleman 
mentioned.  The question that needs to be asked is whether this system 
can talk to the VA�s own system, VISTA.  
	My prepared statement addresses a number of seamless transition
 initiatives that MOAA feels must be a high priority for the Committee 
and Congress as well as the Armed Services Committee overall.  MOAA 
recommends that this Committee and the Armed Services Committee conduct 
a joint hearing on seamless transition.
	Before turning to benefits, I want to briefly address two other 
VA health care issues.  First we are concerned about the adequacy of 
the VA�s construction and research budget.  In recent visits to VA 
polytrauma centers in Tampa and San Antonio, MOAA leaders learned 
that funds are needed to continually upgrade these facilities and to 
enable cutting edge research and technological innovation.  With the 
proposed cut in the construction budget and inadequate research funding 
MOAA is concerned that our severely wounded veterans will not get the 
care and rehabilitative services they will need for decades to come.  
We urge the Committee�s attention to this issue.
	Second, the budget request recognizes the growing need to provide
 robust mental health care services in the VA and we urge continued 
emphasis on this critical funding need.
	Turning now to benefits, I want to associate MOAA with other 
military and veterans� organizations regarding the need to beef-up the
 disability claims processing system.  The VA budget estimate projects 
it will handle about 900,000 claims this year alone.  MOAA strongly 
recommends the Committee endorse needed increases in full-time 
equivalent positions, training and technology improvements.
	Finally, I want to address the need to enact a Montgomery GI 
Bill that reflects the sacrifice of all members of our fighting force. 
We call this initiative a "Total Force Montgomery GI Bill for the 21st
 Century."
	The issue is quite simply this: our forces in the field deploy 
and fight as a team, active duty, National Guard and reserve, but their
 educational benefits are not synchronized according to the service 
they perform nor are they optimized as Congress intended to support
 recruiting, retention and readjustment outcomes.  For example, 
mobilized members of the Guard and reserve are not authorized any 
readjustment benefit under the Montgomery GI Bill when they complete 
their service contracts.  That is simply not right.  And it�s not 
right that the reserve Montgomery GI Bill has dwindled in value, as 
my colleague from the Fleet Reserve Association had said.  It�s 
dwindled to just 29 cents to the dollar compared to the active duty 
program.
	My written statement goes into some detail on this issue, but
 it boils down to two basic recommendations.  First, the reserve 
Montgomery GI Bill programs that are housed in Title 10 should be 
transferred to Title 38 so that future benefits can be correlated 
with the active duty GI Bill.
	Second, Congress needs to authorize a readjustment benefit for
 mobilized reservists and guard members who serve their nation on 
active duty in the War on Terror.  Mr. Chairman, we are very grateful 
to you, to Ranking Member Evans, and to other members of this Committee 
on both sides of the aisle for your interest in and support of a Total 
Force Montgomery GI Bill.  We urge the Committee to work with the Armed
 Services Committee to enact this initiative.
	Finally, Mr. Chairman, I would just like to say that all of us 
here on this first panel work together as colleagues and partners in
 the military coalition.  We testify together before a number of 
Committees on Capitol Hill.  And all of the issues that they have 
addressed here we would like to associate ourselves with in MOAA.
	We thank you again, Mr. Chairman, Mr. Filner, and Members of 
this Committee for the opportunity to testify and I look forward to 
your questions.
	[The statement of Colonel Robert F. Norton, USA (Ret.) appears 
 p. 119]
 	THE CHAIRMAN.  Thank you very much.  Colonel Norton, please 
pass my regards to Evan O�Brien and my appreciation for his leadership 
role in the efforts to modernize the GI Bill.  Don�t know what it is 
going to look like.  Don�t know what we are going call it.  But we are 
going to be judicious and we are going to put our efforts toward this. 
 It�s easy to say, well, we will just move it from Title 10 to Title 
38 and take their jurisdiction and move it over here.  It�s a little 
harder than that.  I did have a good meeting between Chairman Larry 
Craig and the Secretary and myself and I raised this issue and asked 
him to speak with his counterpart Secretary of Defense about this.  
So putting it on their radar screen was important and we will circle 
back.  And we are going to begin our efforts.  But this is a lift.  
I just want you to know that.  I think you understand that.
	COLONEL NORTON.  Thank you, Mr. Chairman.  And if I could just 
add that this issue is identified in the veterans� Independent Budget. 
 All the major veterans service organizations endorse it.  The military
 coalition endorses it.  And the higher education associations are 
behind it as well.
	THE CHAIRMAN.  Well it�s a good coming together about the same 
time.  Before it came to me from you, it came to me from Colonel 
Jim Lariviere because he is the deputy commander of marine reserve 
division.  And so he has been sending his warriors overseas and he 
told me about his tank company.  And the platoons that he sends and 
they then round out that active duty tank platoon.  And then when 
they come back there is an inequity in the benefit.
	And so Jim was the first to bring it to my attention.  So 
it�s all percolating out there.  So I wanted to let you know that.
	I wanted to ask Ms. Lee, the VA came and shared with me the 
survivors website -- while in its development stage.  What is your 
feedback that you are hearing?  Have you also been working with them?
	Ms. Lee.  Yes, sir.  Chairman Buyer, I am glad you brought 
the subject up.  It is really a big help to the girls.  And we do 
periodically remind them to go to the website because sometimes when 
they are in the chat room and they ask each other a question or they 
ask a question that they cannot answer, and I am one of the elder ones 
who is able to monitor the chat room to answer questions.  And so that 
is one of the jobs that I have imposed upon myself to remind them that 
they should go to the chat room and remind them who are the casualty 
assistant officers that they should go to also for information.  And 
also if they were not able to contact their regular casualty assistance
 officer to go the headquarters for their casualty assistance.
	But the website, getting back to it, it�s excellent and we do 
get good feedback on that.  Very much so.  Thank you.
	THE CHAIRMAN.  Yes.  I was really pleased they are doing that.  
So you are highlighting that communication especially at difficult 
moments. Family members and friends can come in and they can help at 
difficult and challenging moments.
	MS. LEE.  That is right.
	THE CHAIRMAN.  Thanks for that response.
	MS. LEE.  Yes.  But I might add though that there are always 
new widows joining the chat room and it�s a constant battle to keep 
them informed of what are the various benefits are and to remind them 
of the different sources such as the website and their casualty 
assistance officers.  And unfortunately on occasions some of the 
widows have said that their casualty assistance officers have had other
 obligations.  It is a collateral duty for them.  And so oftentimes I 
do hear, on rare occasions, I should say now, I hear that there are 
some ladies who don�t have contact with their casualty assistance 
officers.  That is when I give them the name of the headquarters 
contact person so that they do get information through that source.
	THE CHAIRMAN.  Okay.  I brought this issue up yesterday to each
	panel and so I am going to do it with your panel and I will do 
	it with the next panel, because I want you to engage publicly. 
	And that is this great concern I have about individuals that 
	were called to active duty out of the IRR and decided not to 
	show up for duty.  And it appears as though that, I could be 
	wrong, but it appears as though the Department of Defense will 
	not move to court martial them.  And they may do administrative 
	discharges.  And then if you move to administrative discharge
	you only have so many types of discharges which you could 
	receive.
	And my great fear is, and I do not desire at all, on behalf of 
	the country, to have an individual receive a general discharge 
	because its quick and its easy, yet they could be able to access
	very similar benefits from the VA that our honorable discharge 
	veterans could receive.  So I am just putting it on everybody�s 
	radar screen.  Go back and have that discussed and we want to 
	send a message to the Department of Defense and more importantly
	also to the commanders in the field and those JAG officers doing
	their counsel.
	MS. LEE.  Mr. Chairman.
	THE CHAIRMAN.  I also wanted to raise it when Dr. Snyder is 
	here from military personnel.  Yes.
	MS. LEE.  Could I just say one more thing?
	THE CHAIRMAN.  Uh-huh.
	MS. LEE.  I found out that every single widow reacts differently.
	Each person has a different personality and some will be able to 
	on their own debate go to a survival website or find out 
	information.  Others are asking the other widows questions about
	how did this go for you, what did you do, and did you get this or
	did you get that, and what was the cost of the funeral, things
	of that sort.  Those kinds of questions come up.  So each person
	is an individual and they have their own way of looking at these 
	problems that they face when they become newly widowed.
	THE CHAIRMAN.  Okay.
	MS. LEE.  It is difficult for them.
	THE CHAIRMAN.  I would encourage you also, the IT issues are 
	issues that we have been focusing on in the Committee.  They are 
	very important to the seamless transition issues.  And making 
	sure that the VA goes to a one it architecture.  It is one of 
	our challenging issues.  This is very helpful to us, receiving 
	all this testimony for our business meeting and then we have to
	prepare our letters on the budget views and estimates.  We 
	haven�t done it like this before.  And this has been extremely 
	helpful to us.
	But I wanted you to know that as we go through the budget and 
	we do our puts and our takes and buy backs and all kinds of 
	things we have to do, the IT is extremely important. So even 
	though the Administration, as we are moving them to
go, didn�t adopt what we had recommended with regard to a centralized
system, they are moving to what they call their federated approach 
whereby they are still empowering the CIO and he will be responsible 
for the transfer of the assets, meaning the hardware and personnel 
and dollars with regard to that, but not on the development side for 
now.
	And in order to do that and to perfect the system under the one
	architecture we are going to have to buy in some things.  So 
	moving to the data processing centers is going to cost about
	$60 million.  We have got 127,000 PCs out there that aren�t
	going to be able to run on the new software operating systems.
	So these are nuts and bolts things, you know, that -- it�s not 
	glamorous.  Right?  But it�s what we need to do to perfect 
	the system so that we can provide timely care with the highest
	quality possible and ensure that people have that access.  
	These are really important issues and not everyone has touched 
	IT.  And I just wanted to bring that on everyone�s radar 
	screen.  Mr. Filner, you are now recognized.
	MR. FILNER.  Thank you, Mr. Chairman.  And thank you all for 
	your testimony.  I think it reflects a deep understanding of
	your membership and a commitment to their well being.  It 
	shows through in every sentence that you say.  So thank you 
	very much.
	My sense is that everything you asked for is within the 
	capability of this nation.  We can get estimates, I would say 
	four to five billion dollars above what we are talking about, 
	in the budget.  That sounds like a lot of money.  But we have
	a two and a half trillion dollar budget, as Colonel Norton 
	pointed out.  We are spending two billion a week on war.  So,
	a couple weeks of the war would pay for almost everything you
	are talking about.  And we have to consider this a cost of 
	war.  It should be part of that budget. We are going to look 
	at supplemental budgets that don�t have to operate under any 
	budgetary rules.  And that is how we should look at the VA
	budget. 
	You have asked for nothing that this nation cannot do, but I 
	don�t think it�s going to be done, and we have to look at
	that reality.  I think the fix is in.  The President
	understated what he needs, so we will bump it up a little bit
	to show how we really care for the veterans.  But there is 
	something more going on here, and I think we have to be less 
	nice here, less polite.  We are talking about, you know, real
	people with real problems and life and death issues in many 
	cases.
	I think this Administration is purposely trying to downsize as
	opposed to expanding the reach of the VA.  In their budget 
	requests at both TRICARE and with the VA enrollment fees they
	are saying, "Oh, there is going to be more than 200,000 people 
	forced out.  Great news.  We save money."  I mean that is just
	an insult to the veterans of this nation that we are going to 
	joyously celebrate the forcing out of hundreds of thousands of
	either military retirees or veterans from the health system. 
	I think we should be boasting about bringing people in.  
	Instead we are boasting about forcing them out.
	The VA Secretary sat here last week, I think, and said "It 
	wouldn�t be a hardship, these enrollment fees."  In the next 
	sentence says "200,000 will be forced out."  I mean, come on. 
	That is not reality.  It is a hardship.  That is why they 
	will be forced out.  And we shouldn�t stand for it.  I don�t 
	think this Committee or this Congress will.  But that is part
	of the game that is being played in the President�s budget.
	The Chairman talks repeatedly about "Core Veterans."  I think 
	what he is saying is that sevens and eights should not be 
	served by this Veterans Administration.  I don�t think that 
	is a good response to the problems we have.  To save money 
	by forcing veterans out of the system is not the approach 
	that this nation ought to take.
	So we have some real problems, and I think you have to adopt
	some new strategies to deal with them.  Your membership has 
	got to be told squarely what is going on--that we are probably
	$4.2 billion under where we should be just to keep things 
	going as they are.  This Congress and this President aren�t 
	going to put that back in. They will put some in to show that
	they are listening to you.  It won�t be anywhere near what 
	is needed.
	But I think this Congress and this President will respond to 
	the veterans if they take political action, political action
	that is going beyond just coming to a hearing, which they are 
	not even allowed to do anymore, or writing a letter.  They 
	have got to physically meet their Congress person in an 
	informed way.  I think there ought to be demonstrations, 
	whether in Washington or around the country.  I think you have
	to make some noise.  I think the time to be polite is over. 
	The fix is in on this stuff.
	We don�t have by accident a Secretary who was a political hack
	basically, put in charge of the VA. He is going to respond to
	a downsizing imperative.  I don�t think it�s an accident that 
	we changed Chairmen of this Committee.  For the same reason. 
	So, you all have to get, I think, a little bit madder and a 
	little bit more direct, a little bit less polite.
	Because you are not going to get what you deserve going the 
	way we are going.  And I think we have to make some noise.  
	Anybody have any reaction or are you going to join me in making
	noise?
	THE CHAIRMAN.  Dr. Snyder, you are now recognized.
	DR. SNYDER.  I think Mr. Michaud was a head of me, Mr. Chairman.
	I think I came in after he did.  Oh, all right.  I appreciate
	you all�s presence here today.  And I will just be brief 
	because I know we have another panel.  But I am one of those 
	people who, while my total amount of active duty time was only
	21 and a half months back in the late �60�s, Marine Corp IT
	enlistment and early release.
	Actually early release to go to begin college a summer term. 
	I was able to get 45 months of GI Bill.  And I didn�t pay in
	$100 a month.  You know, I just, as a veteran was entitled to
	it and at some point the Congress said instead of 36 months,
	there is a lot of people going on to graduate school, let�s 
	make it 45 months which is effectively five school years.  
	And it was very, very helpful.  And so I appreciate not only 
	you all mentioning that, but you going into some detail in 
	these presentations, both orally and in your written statements.
	And some of the things you talk about are complex when you have
	one portion of our population eligible for the GI Bill is under
	the jurisdiction of this Committee, another part of the 
	population is eligible under the Armed Services Committee, of
	which I am also a member.  And then you have people who, if 
	they are activated for lengths of time they are accruing GI 
	Bill benefits as an active duty personnel member.  And to say 
	there are some complexities here -- and I think that the 
	inertia has been that we haven�t moved as robustly as we -- 
	anywhere near what we ought to frankly.  And so I hope that you
	all�s statements will add to that and I appreciate that.  I 
	would be interested in hearing more from you personally on some
	of the thoughts that you have had.  Thank you, Mr. Chairman.
	THE CHAIRMAN.  Mr. Michaud.
	MR. MICHAUD.  Thank you, Mr. Chairman.  I too want to thank the
	panel for your written testimony as well as your comments.  
	It�s very refreshing to continue to see you out there, each of 
	you, actively fighting for our veterans in this country.  And 
	if it wasn�t for your active voice clearly Congress wouldn�t 
	be doing anything more than what is in the budget.  But because 
	you are here today and because of your membership that is out
	there continuing to remind us not only of those who have served
	this country and the commitment that we owe veterans and their 
	survivors, but it also keeps us abreast of what is actually 
	going on out there in the field.  So I really appreciate your 
	taking the time to come here today to fill us in.  Mr. Chairman,
	I have no questions.  I think they did a great job in their 
	written testimony as well as their oral remarks.  So, thank 
	you.
	DR. SNYDER.  Mr. Chairman.
	THE CHAIRMAN.  Yes.  Thank you.  Dr. Snyder.
	DR. SNYDER.  I want to say one thing.
	THE CHAIRMAN.  Absolutely.
	DR. SNYDER.  On the issue, let�s see several of you mentioned 
	medical research and the Chairman has mentioned it in the past 
	also.  Let�s see, Colonel Norton, I think I have your statement
	here.  And I am sorry I missed your presentation.  But you 
	mentioned medical research in your written statement.  I don�t
	know if you did that in oral presentation.
	But we had a discussion with Dr. Perlin about that here this 
	week.  And you called hence in fact that the budget shows a $17
	million increase in the 06 level based on whether they get 
	non-federal sources.  The challenge though, and I think where 
	they�re running into problems is that it�s my understanding that
	the medical research inflation rate is about three point seven
	percent per year.  And so if there is an actual increase in 
	nominal dollars of $17 million we are probably going to result
	in just right round $60 million or a little less in a real 
	dollar cut to medical research.
	So if we adopt the President�s number just like it is, as it is,
	and assume that they are able to pull in additional NIH money,
	which may be difficult problematic this year because that number
	is not being plused up robustly, you know, it�s not like they are
	going to take a corner of the brick to cut off.  What is going 
	to get cut to save that almost $60 million in real dollars will 
	be personnel and research.  And I hope that it�s something that 
	this Committee will draw a line and appreciate your drawing 
	attention to it.  Yeah, you are back.  Thank you, Mr. Chairman.
	THE CHAIRMAN.  What we have staff drilling into before we can 
	deliver these fees and estimates for the budget by next week, 
	is the increase that the VA medical research has been receiving
	from outside grants.  So they sort of came to us and said we
	don�t need as much money from you because we also have gotten 
	this much of an increase.  I just want you to know we are 
	working to drill down that number.  So publicly it appears as
	though that it would be a decrease and you bring it to our 
	attention.  But it appears as though that they are getting an
	increase from outside sources.  But we want to do the math and
	make sure its right.  And I appreciate you raising our attention,
	Dr. Snyder.  But I just want to let you know that is happening 
	right now as we speak.
	DR. SNYDER.  That is correct, Mr. Chairman.  I think the number 
	in the President�s budget is $1.650 billion total in research,
	which is a $17 million increase with a $1.633 billion from the
	preceding year.  If everything goes as they want and they get
	the additional dollars in real dollars it�s a substantial cut 
	in their ability to deliver services because of the three point
	seven percent inflation rate.
	THE CHAIRMAN.  But what I am saying is that perhaps does not 
	take into account all of the increase in research dollars that 
	they are presently receiving.  And which we want to understand.
	So it would appear as though you say well, there is a cut in 
	medical research.  Well, perhaps not.
	DR. SNYDER.  Well, I am just going by the budget numbers.
	THE CHAIRMAN.  Right.  I understand.
	DR. SNYDER.  That one point six five billion in the President�s
	budget includes all of the outside money.  I think the budget
	number, my staff may know, I think it�s $399 million is actual
	federal dollars that are coming to the VA in research.  So the 
	one point six five zero billion assumes that they will meet 
	their mark as far as getting other outside monies.  Now, maybe
	they will do even better then that.
	THE CHAIRMAN.  I think they are going to do even better.
	DR. SNYDER.  Well, they are not showing us that.  What they 
	are telling us they are estimating they are going to get $17
	million more.  And we are to do the President�s budget number
	and assume that they will get the $17 million more will still
	mean a $50 to $60 million cut in actual services.  But I am 
	glad you are looking into that.
	THE CHAIRMAN.  I think you all have been very cautious with
	regard to Administration assumptions.  So, that is why I
	wanted -- 
	DR. SNYDER.  That is why I want to work with the gentleman on
	the medical research.
	THE CHAIRMAN.  All right.  Thank you very much for your 
	testimony and I would enjoy working with you.  This panel is 
	now excused.  If the second panel could please come forward.
	First Mr. John Rowan is the National President of Vietnam 
	Veterans of America.  Mr. Rowan I commend you and the work of
	your organization, and what you are presently doing to return
	the remains of our missing in action from Vietnam.
	Mr. Rowan was elected National President of Vietnam Veterans 
	of America at the organization�s twelfth national convention
	in Reno, Nevada.  Mr. Rowan served as the Chairman of the 
	VVA�s conference of the state council presidents and three 
	terms on the organization�s board of directors.  He is President
	of VVA�s New York State Council.  He served as a linguist in
	the United States Air Force Security Service during the Vietnam
	War.  VVA is the nation�s only congressional chartered veterans 
	service organization dedicated to the needs of Vietnam war hero
	veterans and their families.
	Representing the Association of Service Disabled Veterans is 
	Mr. John K. Lopez.  He�s been Chairman since 1985.  The
	Association emphzsizes economic participation for service 
	disabled and prisoner of war veterans.  He sponsored eight
	business development legislative acts in the California 
	legislature and ten in the United States Congress, all of which
	are now public laws.  Mr. Lopez is a veteran of the United 
	States Marine Corps and was disabled in service while in Korea 
	as a Sergeant.  His career has been frequently interrupted by 
	physical relapse due to his military service injuries, but he
	keeps on coming.  Mr. Lopez is also Chairman of the SDV Group,
	Incorporated and the Service Disabled Veterans Business 
	Association.
	Next we will hear from Mr. George Basher, President, National
	Association for the State Directors of Veterans Affairs.  He
	was appointed director of the New York State division of 
	Veterans Affairs in March, 1999, by Governor George Patacki. 
	The Division serves as the State�s advocate for veterans and 
	their families.  He also serves on the board of directors 
	for the National Coalition for Homeless Veterans.  Earlier
	this year he was appointed by the Secretary of Veterans Affairs
	to the 15 member Advisory Committee on Homeless Veterans.  The
	director received his army commission in 1969 and served three 
	years in the Ordinance Corps, including a year in Vietnam where 
	he commanded the 78th Ordinance Detachment.
	Representing the American Ex-Prisoners of War is Mr. Les 
	Jackson, their Executive Director.  Mr. Jackson is present
	-- strike the word "present".  Mr. Jackson is here to present 
	the testimony of National Commander Gerald Harvey.  Mr. Jackson 
	has been serving as the Executive Director of the American 
	Ex-Prisoners of War since April of 2001.  He qualified for 
	membership on April 24, 1944, after being captured by no fewer
	than 200 of Hitler�s army recruits from a basic training camp 
	only a few hundred yards from where his B-17 had crashed.  
	Mr. Jackson, I am sure you have quite a story to tell with 
	regard to such an event and encourage you to contact the Library
	of Congress, if you have not.  Please tell your story so that 
	America and others -- will you do that?
	MR. JACKSON.  Yes.
	THE CHAIRMAN.  Thank you very much.  The veterans� history 
	project will be enriched by your story.  If you would like, what
	I will do is I will have Mr. Lariviere be in touch with you 
	immediately after the hearing and we will let you know how you
	can work that with the Library of Congress so your story may be 
	placed on the official record.
	MR. JACKSON.  The kind of encouragement I need.
	THE CHAIRMAN.  Very good.  Next we will hear from Ms. Ann Knowles 
	as President of the National Association of County Veterans 
	Service Officers.  She served Sampson County, North Carolina as 
	its veterans service officer since 1983.  Veterans service 
	officers perform a unique and valuable service to all of our 
	nation�s veterans.  They are a link between the veteran and the 
	federal VA system advising veterans, helping them process claims
	applications, keeping both veterans and public officials at the
	state and local levels up-to-date on veterans issues and 
	services.  I believe this is the first time the National 
	Association of County Veterans Service Officers has been invited 
	to present testimony at these hearings and we welcome you.
	Finally, we will hear from Mr. Rick Jones, the Legislative
	Director for the National Association for Uniformed Services.
	Mr. Jones joined NAUS as the legislative director on 
	September 1, 2005.  He is an Army veteran who served as medical
	specialist in the Vietnam War era.  His assignments include 
	duty at Brooke General Hospital, U.S. Army in San Antonio, 
	Texas; at the Fitzsimmons General Hospital in Denver, Colorado;
	and Moncrief Community Hospital in Columbia, South Carolina.
	Welcome, ladies and gentlemen.  Without objection your written 
	statements, if all of you have one -- all acknowledged in the
	affirmative.  Your written statements will be entered into the
	record.  We will begin with you, Mr. President Rowan Vietnam
	Veterans of America.

STATEMENT OF JOHN ROWAN, NATIONAL PRESIDENT, 
	VIETNAM VETERANS OF AMERICA, ACCOMPANIED BY
	RICHARD WEIDMAN, DIRECTOR OF GOVERNMENT RELA-
	TIONS

	MR. ROWAN.  Thank you, Mr. Chairman and the Members of the 
	Committee.  I want to thank you for allowing us to testify this 
	afternoon.  First, Mr. Chairman, I want to applaud your call for
	a real GI Bill that would be like the one that we had back in 
	World War II.  When I was teaching as an urban studies professor
	I used to teach that program as being one of the best pieces of
	social legislation ever put out by this Congress and which
	created the middle-class that we know in the United States 
	today.  Without it there would have been no middle-class.
	The VVA has a very simple agenda this year.  First, funding for
	veterans� health care and other veterans� services, especially 
	the comp and pension system in VA.  Second, accountability in 
	each of the above arenas.  And third, outreach to inform veterans
	as to what their benefits are.
	In VVA�s testimony for the record we give breadth and scope to 
	these issues and to the following issues: the POWs which is 
	still our highest priority, post traumatic stress disorder, women
	veterans health, agent orange and other toxic exposures,
	increased employment and training programs, increased business 
	opportunities for veteran-owned businesses, homeless veterans,
	comp and pension reform, and a bold legislative agenda to do
	what must be done to assist the new generation of veterans.
	Under funding, the cost of caring for veterans, as was mentioned
	earlier, is part of the continuing cost of our national defense
	and we must keep that in mind at all times.  The VA can do a 
	better job if it�s assured of an adequate budget for veterans 
	health care.  The current discretionary system just does not 
	work.  Last July, Congress was in an uproar over the shortfall. 
	The VA acknowledged an $800 plus million hole for Fiscal Year 
	�05.  The VSO�s won�t say to the VA we told you so, but we told
	them so.
	Mr. Chairman, we want to thank you for your strong and decisive
	leadership in resolving that crisis.  Again this year we believe 
	the Administration�s budget request is short by at least two 
	point three billion dollars.  And four point two billion would 
	be needed to reopen the system to priority eights.
	As VVA has said before, we would be discussing a budget eight 
	to ten billion dollars greater had the VA�s health care budget 
	not been flat-lined for four years as eligibility reform was
	opening the system to hundreds of thousands of deserving
	veterans.
	There is no doubt that we will all suddenly discover that there
	is not enough money at the VA hospitals to last until October, 
	2006.  The bad news is the good news is wrong.  The continuly 
	increasing burden on the health care system is not just caused 
	by the influx of veterans of the fighting in Iraq and 
	Afghanistan, but because Vietnam veterans are getting sicker at
	an earlier age with diseases and maladies that can be traced 
	back to our service in southeast Asia.  These service-connected 
	illnesses will pose serious long-term fiscal problems for the 
	VA that must be addressed.  We challenge Congress here and now
	to form a bipartisan group to meet, study the issues and 
	options, hold hearings, and recommend legislation that would
	fundamentally change the way in which veterans health care is 
	funded now, this year, for the �07 budget.
	A fair funding formula can be arrived at.  One that won�t bust
	the budget, but one that recognizes our nation�s obligations to
	veterans as an on-going cost of national defense that must be 
	keyed to medical inflation and the per capita use of the VA 
	health care system.
	We are also concerned about the compensation side of the house. 
	More than half a million veterans� claims have been in various
	stages of adjudication for more than six months.  Congress must
	demand an accounting why it takes upwards of two and a half 
	years to adjudicate claims.  We need accurate adjudication.  
	The IG report of May 6, 2005, documented the poor training of 
	adjudicators and the inordinate pressure to decide cases with 
	incomplete data.  Congress must demand that the VA not only 
	develop but put into practice a real strategy for unclogging
	the system.
	We also need greater accountability.  We applaud you, 
	Mr. Chairman, for your task force on accountability and for 
	including the VSOs in this effort.  Budget reform must be 
	accomplished hand-in-hand with real changes in how VA senior
	managers and middle managers and line staff perform.  Give 
	at-a-boys and bonuses to those who have earned them to managers
	and workers using objective criteria, but VA must give warnings
	and sanctions to those who have not done their jobs well. 
	Better management and training and competency best taste -- 
	excuse -- competency based testing is needed if efficiency and 
	effectiveness is to be increased.
	We have a need for expanded outreach.  According to the census
	bureau there are 25 million veterans in the United States and 
	only one-fifth in any interaction with the VA.  Many are eligible
	for compensation for several maladies incurred during their 
	military service and yet far too many of them are unaware of the
	benefits to which their service entitles them.
	The VA has an obligation to reach out to all veterans to ensure
	to the maximum extent possible that they know what benefits 
	they have earned and that they know how to access these benefits.
	In VVA�s 2006 legislative agenda and policy initiatives, which 
	I hope you all have gotten and if you haven�t we will make sure 
	we have them to you, we discussed several other priorities, 
	including the following major issues.
	The National Vietnam Veterans Longitudinal Study must be done as
	required by Public Law 106-419.  The utter contempt that the VA 
	has shown and continues to show for the law and for the will of
	Congress must not be allowed to continue.  We must ask you to 
	fully investigate this mess of the VA�s creation and force the 
	completion of the NVVLS at an early date.  The Congress and all
	of us need the results of this study in order to quantify the
	health status of Vietnam veterans so that the VA can accurately
	forecast their future needs.
	This study should also provide the VA and the Congress with the 
	framework for forecasting the needs of those brave Americans 
	serving in Iraq and Afghanistan and elsewhere today.  VA urges 
	the early passage of HR 4259, the Veterans� Right to Know 
	Commission Act, as well as action by this Committee to secure an 
	extension of health care for those veterans who are exposed to
	biological weapons, chemical weapons, as well as harmful 
	stimulants and decontaminates during SHAD and Project 112.
	Lastly, we need an additional 250 full-time permanent staff at 
	the VA centers, the Vet centers, to properly assist OIF/OEF Vets
	and their families with the PTSD problems that are coming home
	from Iraq and Afghanistan.
	Mr. Chairman and the Committee, VVA thanks you and all the 
	distinguished Members of this Committee on both sides of the
	aisle for your leadership, your service to veterans, and for all
	of your hard work.  I would be pleased to answer any questions 
	you may have.  Thank you.
	[The statement of Mr. John Rowan appears on p. 132]
 
	THE CHAIRMAN.  Will you please hold for a second?  We need to 
	wait for Mr. Filner, here.  All right.  Mr. Lopez, please, you 
	may proceed with your testimony.

STATEMENT OF JOHN K. LOPEZ, CHAIRMAN, ASSOCIATION
	FOR SERVICE DISABLED VETERANS

	MR. LOPEZ.  Thank you.  Good afternoon, Mr. Chairman, Ranking 
	Member, Members of the Committee.  The Association for Service
	Disabled Veterans continues to focus on rehabilitation as an
	alternative to improving the quality of life of our veteran.  
	It has been nearly six years since the U.S. Congress first 
	provided support for the service disabled and prisoner of war
	veteran enterprise initiative by enacting Public Law 106-50 and 
	Public Law 108-183.
	The Administration followed that direction by invoking 
	Presidential Executive Order 13360, directing aggressive and 
	immediate implementation of those laws and specifying actions 
	to be taken.
	Those activities took place in October 2004 and since that time
	the frustration has continued.  For example, when Public Law 
	106-50 was enacted the Federal Acquisition Regulatory Council 
	contended that the main intent of the legislation by Congress 
	was unclear and therefore the required establishment of a 
	program for service-disabled veterans did not exist.
	Subsequently, the legislative intent of the United States 
	Congress has ben variously interpreted by regulators due to the
	necessity for inserting and parsing of the required language,
	statements, and references to existing regulations and public 
	laws.  This bureaucratic obfuscation has the effect of confusing
	and impeding the effort to increase the participation of the 
	service-disabled veteran in government procurement and 
	contracting opportunities.
	H.R. 3082 The Veteran Owned Small Business Promotion Act, 
	clarifies and reemphasizes the intent of the U.S. Congress.  The
	intent is a splendid example of the concern and focus of the 
	Committee�s response to the veteran�s need for rehabilitation 
	and transition assistance.
	H.R. 3082 gives specific authority to the Department of 
	Veterans� Affairs to confirm the eligibility of service disabled 
	veteran businesses and to accept direct responsibility for the
	provision of benefit to the veteran, especially the service
	disabled veteran.  It puts the task to that agency specifically 
	established for the purpose of serving those who have borne the
	battle.
	Included is concern for th total family.  The age-old adage 
	that, "Beside every successful man stands a woman", pales in 
	significance when compared to the role of wives, mothers, 
	sisters, and daughters who care for those service disabled and 
	prisoner of war veterans that are enhancing their rehabilitation
	through the ownership and management of businesses.  At the same
	time, at the very same time hey are assisting them in their 
	business.
	Besides the enormous burden of caring for the service disabled
	veterans� life-long disabilities, incurred in sacrifice for the
	well being of all the free world, these women are vested 
	participants in the daily management of he service disabled 
	veteran enterprise.  Without their participation the service 
	disabled veteran enterprise is surely doomed to failure.  For 
	too long has this extraordinary contribution gone unrecognized 
	and the unique investment of vested women gone uncompensated.
	Present legal interpretation states that the legal entitlement of
	the service disabled veteran enterprise ceases when the service 
	disabled veteran owner dies or is incapacitated, leaving the
	significantly invested vested woman with a practically totally 
	devalued business.  The actual vested woman role as a de facto 
	partner and the enabling force in the enterprise is discarded.
	This is an unacceptable disposition of the accomplishments of the
	service disabled veteran and the sacrifice of the vested woman, 
	disgracing the responsibility of the nation for the sacrifices of
	the veterans� unique initiative.  HR 3082 will alleviate this 
	injustice and provide for service disabled veteran business 
	succession.
	In the words of one vested woman, "Women have stood by too long
	while our disabled veteran loved ones have taken abuse and 
	disrespect for their sacrifice for this nation while they struggle
	with their own rehabilitation.  That will now stop."
	It is estimated that over 2,500,000 women are integral in the 
	operation of the service disabled veteran enterprise and over 15 
	million women in all veteran owned businesses.
	HR 3082 also clarifies the misconception that veterans�
	entrepreneurship and the proposed at are a socioeconomic 
	development initiative or a cultural inequity panacea.  HR 3082
	is a specific contribution to that continuing obligation or our
	nation to rehabilitate those veterans that have sacrificed for
	our nation�s security and prosperity.
	The service disabled veterans government service and his incurred
	misery is unique.  There is no justification for requiring that
	service disabled veteran indemnification and rehabilitation be
	adjusted to the conduct of any other socioeconomic program.
	Future generations of American military heroes will be forever
	indebted to the Congress, and especially the 109th Congress, 
	for their commitment to honor and support those killed, maimed, 
	and tortured in the continuing struggle to provide security and
	prosperity fo the people of this world.  Those Iraqi Afghanistan 
	veterans returning from harms way are experiencing a far 
	different outreach from others who have served, and that is a
	tribute to the conscience of the Members of the U.S. Congress.
	The 25 million veterans of our nation thank the Chairman and 
	Ranking Members of the Committee and Subcommittees.  The 
	500,000 grandmothers, 12 million wives, 6 million granddaughters 
	and their dogs that are direct stakeholders and beneficiaries of 
	veteran�s entrepreneurial investment and the 30 million employees
	of veteran enterprises thank the U.S. Congress for the 
	compassionate and responsible -- 
	THE CHAIRMAN.  John, can we include cats?
	MR. LOPEZ.  Just dogs.  That have demonstrated -- that is pretty 
	funny -- in the development of veterans entrepreneurship.  We ask
	that the Congress enact HR 3082 expeditiously and that the 
	Congress stay acutely engaged in a process of verifying that the 
	intent of veteran entrepreneurship development legislation is 
	implemented.  Thank you for your attention.  I will be pleased 
	to answer any questions the members may have.
	[The statement of Mr. John Lopez appears on p. 163]
 
	THE CHAIRMAN.  Thank you, Mr. Lopez.  Mr. Basher.

STATEMENT OF GEORGE BASHER, PRESIDENT, NATIONAL
	ASSOCIATION OF STATE DIRECTORS OF VETERANS 
	AFFAIRS

	MR. BASHER.  Mr. Chairman and distinguished Members of the 
	Committee, as President of the National Association of State 
	Directors of Veterans Affairs I think you for the opportunity 
	to testify and present the views of our state directors of all
	50 states, commonwealths and territories.
	As the nation�s second largest provider of services to 
	veterans, spending over $3.5 billion annually, state 
	governments� role continues to grow.  We believe it is 
	essential for Congress to understand this role and to ensure 
	we have the resources to carry out our responsibilities.  We 
	partner very closely with the federal government in order to 
	best serve our veterans.  And as partners we are continuously
	striving to be more efficient in delivering services to 
	veterans.
	Under health care benefits and services NASDVA supports the 
	Capital Asset Realignment for Enhanced Services, CARES,
	process.  We were generally pleased with the report and 
	recommendations made in the final plan.  We also support the
	process for planning at the remaining 18 sites and the 
	direction it will move VA as a national system.  We urge that
	capital funding required for implementation be included over
	a reasonable period of time to enable these recommendations 
	to be realized.
	We support the opening of additional community based outpatient
	clinics.  We would like to see the new priority CBOCs deployed
	rapidly with appropriate VA medical center funding.
	We recommend an in-depth examination of long-term care and 
	mental health services.  The CARES Commission review did not 
	include long-term are or mental health services, but did 
	recommend further study of both areas.  To that end, we again 
	ask that a study be done to thoroughly examine veterans� 
	long-term care needs and continue the study currently being 
	done on mental health care needs, to include gap analysis 
	clearly identifying where service are lacking.  The CARES report
	recognized state veterans homes asa critical component of 
	veterans� long-term health care and a model of cost-efficient 
	partnership between federal and state governments.  These state 
	nursing care facilities and domiciliaries bear over half of the 
	national long-term health care workload for our infirm and aging
	veteran population.  Forty-eight states provide care for more 
	than 27,500 veterans in 120 homes.  We urge you to continue to 
	oppose proposals that jeopardize the viability of our state 
	veteran homes.  State taxpayers have supported the homes through
	its 35 percent share of construction costs with an understanding 
	that the federal government would continue to make its 
	contribution through per diem payments.  The federal government
	should continue to fulfill its important commitment to the
	states and ultimately to the individual veterans in need of 
	care.
	MR. FILNER.  Has Mr. Chairman finished talking to his staff so 
	we may continue?
	MR. BASHER.  NASDVA continues its strong support for the state 
	home construction grant program.  The annual appropriation for 
	this program should be continued and increased.  Based on the 
	reduction in funding in fiscal year 2006, we recommend that the 
	amount in �07 be increased to $115 million.  Re-ranking of
	projects should be eliminated once a project is established a 
	priority one project with state matching funds available.
	Since 1977, state construction grant requests have consistently 
	exceeded Congressional appropriations for the program.  According
	to the �06 priority list of pending home applications there are
	80 projects in the priority one group with state matching funds 
	of $226 million committed and a federal match of $420 million. 
	Any grant moratorium only exacerbates an already underfunded 
	program, where the fiscal year �06 appropriation was only $85 
	million.
	The success of VA�s efforts to meet its current and future 
	long-term care needs of veterans is contingent on resolving the 
	current mismatch between demand and available funding.  We 
	recommend this issue be included in any long-term care study 
	undertaken.
	We support full reimbursement fo care in state veteran homes for 
	veterans who have 70 percent or more service-connected disability 
	or who require nursing home care because of a service-connected 
	disability.  Currently community homes are paid are paid the full 
	daily cost of care but if that same veteran was in a state 
	nursing home they would only receive the federal per diem.
	We support increase in per diem to provide one-half of the 
	national average annual cost of care in a state veterans� home.
	Today it�s less than 25 percent.  We support VA medicare 
	subvention.
	We recommend that VA implement a medicare subvention program 
	similar to the unrealized VA Advantage Program.  Working with 
	the Department of Health and Human Services this program would 
	allow a priority group eight veterans aged 65 and older to use 
	their medicare benefits to obtain VA health care.  VA would 
	receive medicare payments to cover costs.  It�s an HMO concept
	we have supported in the past.  However, we are concerned about
	he delay in implementation of a pilot.  It was our understanding
	two years ago that this program would be available to veterans 
	within a few months and another year has now passed without 
	implementation.
	We also request continued protection of the federal supply 
	schedule for VA and DOD pharmaceuticals.  We support continued 
	efforts to reach out to veterans.  This should be a partnership 
	between VA and the state Departments of Veterans� Affairs.  
	While growth has occurred in VA health care due to improved
	access to CBOCs, many areas of the country are still short 
	changed due to geography and/or due to veterans lack of 
	information and awareness of their benefits.  VA and state 
	directors must reduce this inequity by reaching out to veterans
	regarding their rights and entitlements.  We support 
	implementation of a grant program that would allow VA to 
	partner with state directors to perform outreach at the local
	level.  There is no excuse for veterans not receiving benefits
	to which they are entitled simply because they are unaware.
	Under compensation and pension, we support consideration of a 
	greater role for state directors in the overall effort to
	manage and administer claims processing, regardless of whether 
	the state uses state employees, veterans service organizations,
	or county veterans service officers.  Recent studies regarding 
	claims processing have all noted that VA needs to make better 
	use of the assets of the state and local government to assist 
	in claim processing.  The claim processing task force is one 
	example.  Additionally, as noted in the recent VA Inspector 
	General�s Report, "Veteran access to competent claim assistance 
	is still very much an accident of geography."  Effective 
	advocacy for veterans from an initiation of a claim to VA 
	decision can improve sufficiency and timeliness of the claims.
	Numerous studies indicate well developed claims produce better
	outcomes for veterans in a shorter time at a lower cost to VA.
	State directors, nationally chartered VSOs and county veteran 
	service officers have the capacity and capability to assist VA. 
	State directors can be an effective partner with VA to 
	establish and achieve higher performance standards in claims
	preparation.  State directors could assume a role in more 
	effective and comprehensive training programs, certification of 
	service officers, to ensure competence and technical proficiency
	in claims preparation.  We can support VA in its duty to assist
	without diminishing our role as advocates.
	For all the reports and testimony to the contrary, VBA has not 
	been very successful in making effective use of the state,
	county, service officers systems of service auditors and
	counselors.  We further recommend the establishment and 
	enforcement of uniform training programs, performance measures 
	for all personnel involved in the preparation of claims.
	Under burial and memorial benefits, we recommend an increase in
	the plot allowance for all veterans to $1,000 per interment, 
	it�s currently $300.  And we strongly support an increase in 
	funding for the state cemetery grant program, a new federal
	state national cemetery administration grant program could be 
	established to support state costs.
	We also support efforts to diminish the national disgrace of
	homelessness among veterans.  State directors would prefer an
	active role in allocating and distributing per diem funds for
	homeless veterans to non-profit organizations ensuring greater 
	coordination, fiscal accountability, and local oversight of 
	the services provided.  We also strongly support improving upon
	and providing seamless transition to help our service members 
	transition into civilian life.
	We support the expansion of the Transition Assistance Program
	and efforts need to be made to maximize the integration of 
	services provided by DOD, VA and state and local governments. 
	It must be recognized that no single agency can adequately meet
	the transition needs of our returning service members.
	We strongly support veterans� preference with regard to 
	employment.  We support full implementation of existing programs
	and laws with regard to veterans� preference to ensure our 
	returning veterans have every opportunity available in their 
	transition into civilian life.  We also support incentives to 
	businesses that hire veterans.
	In conclusion, Mr. Chairman and distinguished Members of the 
	Committee, we respect the important work that you have done to
	improve support to veterans who have answered the call to
	serve our nation.  The National Association of State Directors
	of Veterans� Affairs remains dedicated to doing our part, but 
	we urge you to be mindful of the increasing financial challenge 
	that states face, just as you address the fiscal challenge at 
	the federal level.  We are dedicated to our partnership with VA
	in the delivery of services and care to our nation�s veterans.
	This concludes my statement and I am ready to answer any 
	questions you may have.  Thank you.
	[The statement of Mr. George Basher appears on p. 176]
 
	THE CHAIRMAN.  Thank you very much, Mr. Basher.  Mr. Jackson,
	you are now recognized.

STATEMENT OF LES JACKSON, EXECUTIVE DIRECTOR,
	AMERICAN EX-PRISONERS OF WAR

	MR. JACKSON.  I want to talk as fast as the three gentlemen on 
	my right.  I don�t have as much to say.  Chairman Buyer, 
	Ranking Member Evans, distinguished Members of the Veterans --
	House Veterans� Affairs Committee and guests.
	I welcome the opportunity to again speak on behalf of American 
	Ex-Prisoners of War.  We are deeply grateful for all that the
	Congress and the Veterans Administration has done for POWs 
	over the last 30 years.  As you know, prior to that POWs were 
	an invisible part of the veteran population.  It has been 
	incorrectly stated that we preferred it that way out of shame 
	over being captured.  This is not true.  We are proud to have 
	lost our liberty while defending the right of all Americans 
	to be free.  We were so happy to be free we simply wanted to 
	again get to enjoy our homes and our families and get back to 
	raising -- starting a new career.  As a result, we made few 
	requests upon the government at that time.
	Public awareness about the plight of aging POWs generally was
	reawakened when the plight of the Americans held for months
	and years in North Vietnam.  Max Cleland, was the VA
	Administrator at that time, and he later became Senator from
	Georgia.  He took the lead in correcting the country�s failure
	to remember POWs form the earlier wars, including World War II.
	VA then immediately took steps to identify all POWs receiving 
	benefits, health benefits and disability benefits.  Congress
	responded and directed VA to conduct a review of all policies
	and procedures relative to POWs and established a POW Advisory
	Committee to review and evaluate VA and Congressional matters 
	as they relate to POWs.  
	Over the last 30 years many presumptives were established to
	simplify the procedures by which POWs could obtain needed 
	disability benefits and medical care.  The ongoing research
	conducted on POWs by the National Academy of Sciences provided 
	the basis for these ongoing Congressional studies for VA.  At 
	present most of the long-term health problems causally 
	related -- associated with the brutal and inhumane treatment 
	of being captive have been identified and made presumptive.
	We urge Congress to act on the several remaining medical 
	conditions identified in certain legislation.  The first of 
	these is chronic liver disease.  It is simply a clarification 
	of a current presumptive, cirrhosis of the liver.  The
	National Academy of Sciences has stated in writing that more
	currently reflects their findings.  Cirrhosis is simply the 
	final stages of chronic liver disease.
	The second is diabetes.  It has already been established for 
	Vietnam veteran exposed to certain chemicals and other factors.
	POWs similarly were exposed to adverse factors while captured 
	and are causally related to diabetes.
	Third, osteoporosis.  This is directly related to absence of
	the calcium needed to maintain bone structure, a common 
	situation for POWs.  This condition becomes apparent after 
	a bone breaks.
	Adjudicators typically already decide these claims for POWs. 
	Making it a presumptive simplifies the process for
	adjudicators as well as POWs alike.
	HR 1588 introduced by Representative Mike Bilirakis and 
	S. 1271 introduced by Senator Patty Murray cover these 
	presumptives.  We ask the full Committee to support these
	bills.
	We call to your attention that these bills have virtually 
	no increase cost to any of these -- many of these proposed 
	presumptives.  Costs are more than offset by rapidly 
	diminishing numbers of POWs already on the disability rolls
	or favorably acted upon by VA adjudicators via a longer 
	process of evaluation.
	Also I want to include -- recognize the fact that Congressman 
	Filner has introduced HR 2369, which awards a Purple Heart 
	to every POW who died while in captivity.  We urge the 
	support of the Committee for these bills.  The American 
	Ex-Prisoners of War appreciates the opportunity to share our
	views with you.
	[The statement of Mr. Les Jackson appears on p. 176]
 
	THE CHAIRMAN.  Thank you, Mr. Jackson, for your testimony. 
	Ms. Knowles, you are now recognized.
	
STATEMENT OF ANN KNOWLES, PRESIDENT, NATIONAL 
	ASSOCIATION OF COUNTY VETERANS SERVICE OFFICERS

	MS. KNOWLES.  Thank you.  Mr. Chairman, Members of the 
	Committee, it is truly my honor to be able to present this
	testimony before you today.  As President of the National 
	Association of County Veterans Service Officers, I am 
	commenting on three things.  Recommendation for the creation
	of a new federal, state, and local government partnership to
	provide outreach to veterans and their dependents; the 
	development of standardized training for county veterans 
	service officers; recommendation for claims development 
	improvement.
	The National Association of County Veterans Service Officers 
	is an organization made up of local government employees.  Our 
	members are tasked with assisting veterans and their dependents
	in applying for benefits with the VA.  We exist to serve 
	veterans and partner with the national service organizations 
	and the VA to serve veterans.  Our Association focuses on
	outreach, standardized training, and claims processing.  We 
	are an arm of the government, not unlike the VA itself in 
	service to the nation�s veterans and their dependents.
	Our workforce represents approximately 2,400 government 
	employees available to partner with VA to help speed the process
	of claims development and transition by military personnel back
	to civilian life.  Upon discharge, the service man or woman 
	becomes a veteran who returns to the local community.  When
	health issues become apparent and help is needed, the most
	visible and accessible assistance is your County Veterans 
	Service Officer.
	As we sit here today discussing the needs of the veterans 
	across this great land, it soon becomes apparent that there 
	are many areas that need attention.  Outreach and claims 
	processing improvements are essential if we are to fulfill the
	obligation proclaimed by Abraham Lincoln "To care for him who
	shall have borne the battle and for his widows and his
	orphans."  That is our focus and that is our passion.
	The year 2005 brought much needed changes and additions to the
	veterans� laws.  And the National Association of County 
	Veterans� Service Officers commends Congress on your 
	ccomplishments of 2005.  However, there is much more that 
	remains to be done in the arena of unmet needs.
	I would like to take a few minutes to address our legislative 
	priorities beginning with outreach.  Outreach efforts must be
	expanded in order to reach those veterans and dependents that
	are unaware of their benefits and to bring them into the system.
	Nearly two million poor veterans and their impoverished widows
	are likely missing out on as much as $22 billion a year in
	pension benefits from the U.S. government.  But the VA has had
	only limited success in finding them according to the North 
	Carolina Charlotte Observer.
	Widows are the hardest hit.  According to VA�s own estimate only
	one in seven, only one in seven of the survivors of the nation�s 
	deceased veterans who likely could qualify for pensions actually 
	get the monthly checks.  Veterans and widows are unaware that 
	the program exists.  They simply don�t know about it and the VA
	knows that many are missing out on the benefits.  "We obviously
	are here for any veteran or survivor who qualifies," says a VA 
	pension official.  "There are so many of them we don�t know who 
	they are or where they are."  The VA�s own report of 2004 
	recommended that the agency improve its outreach efforts with 
	public service announcements and pilot programs.  While it made
	limited efforts to reach veterans or the widows through existing
	channels, it is difficult to determine whether such efforts have
	been successful.
	Nonetheless, VA�s estimate of the program shows the potential 
	pool of poor veterans and widows without the pension has 
	remained unchanged for four years. A VA report estimated an
	additional 853,000 veterans and 1.1 million survivors,
	generally widows, could get the pensions but don�t.  Of all 
	those likely eligible only 27 percent of the veterans and 14 
	percent of widows receive the money.  It�s obvious there is a
	great need for outreach into the veterans� community and the 
	local CVSO is the advocate closest to the veterans and their 
	widows.  Therefore, NACVSO is supporting House Bill 4264 and 
	companion bill, Senate 1990 introduced by Congressman Mike 
	McIntyre and Senator Richard Burr of North Carolina that would 
	allow Secretary Nicholson to provide federal and state, local 
	grants and assistance to state and county veterans� service 
	officers to enhance outreach through veterans and their 
	dependents.
	Secondly, standardized training for CVSOs.  Across the United 
	States there are approximately 3,000 state and county veteran
	service officers who are required by the state and local laws
	to assist veterans and their dependents in applying for 
	benefits from the VA.  The laws of the states are inconsistent 
	in the requirements for employment of service officers, their 
	training requirements and their accreditation process.  Some
	states have a very strict detailed training program with an 
	accreditation test that must be passed.  They also include a 
	continuing education process that must be met each year to
	maintain accreditation, and in some cases, to maintain 
	employment.
	This is in contrast to other states that have little or no 
	training and do not have an accreditation program.  If the
	state law is a "shall operate a county veterans service
	office" versus a "may operate a county veterans office" there 
	very well could be a big difference on how the county veterans
	offices are funded and operate.  Depending on where in this 
	country one may go there are great disparities on how the 
	offices are funded, operated, and the level of staff training.
	Most county veterans offices operate on bare bone budgets by 
	their respective counties.  To overcome these deficiencies in
	the service to veterans across the country a method of 
	standardized training must be established.  To enhance 
	training we must also have a reliable accreditation process,
	a method to maintain that accreditation, and a means to track 
	current status of accredited service officers.  Seventy-five
	percent to ninety-five percent of all claims filed through 
	the regional offices across this country are filed by a county
	and state veterans service officer.  We are the ones that sit
	at the table across from the veterans on a daily basis.
	Finally, claims development.  NACVSO sees the role of county 
	veterans service officers as one of advocacy and claims 
	development in concert with the veteran or dependent at the 
	grassroots level.  Where the initial claim is prepared and
	the necessary supporting documentation is gathered from
	veterans or dependents, private medical sources, county, state
	public records, VA medical center, and reviewed for
	completeness.  This complete package is passed off to a state 
	or a national service officer for review and presentation to 
	the VA regional office of jurisdiction.  Any hearings or 
	additional records required would be obtained by this 
	organization in concert with the CVSO of record.
	The majority of the CVSOs have the capability of electronic 
	filing.  We currently are able to perform many electronic 
	activities with other agencies and institutions.  NACVSO 
	strongly believes for the CVSO to have access to the VA�s 
	electronic files would greatly improve the claims process, speed
	veterans� awards, and help eliminate the loss of files as well 
	as enhance VA�s own record keeping.
	Currently the partnership between the VA and CVSOs based upon
	eligibility criteria that includes training and accreditation 
	has allowed us access to certain screens on SHARE and MAP-D, 
	which are the VA�s computerized claims process and development
	systems.  Even with this limited access we still must use the VA
	office regional phone units to get information on appeals and
	ratings.  Expansions of remote access to include VACOLS, RBA 
	2000, CPRI and eventually Virtual VA systems must become a high 
	priority if there is to be the ultimate electronic claims 
	development.  All of this would increase productivity and be an 
	additional way to speed the processing of veterans claims to 
	reduce the inventory.
	On behalf of the National Association of County Veterans Service
	Officers I would like to thank you for giving me this opportunity
	to share these thoughts with you.  It is truly an honor for us to 
	be a part of this process.  Now I would be glad to entertain any 
	questions.
	[The statement of Ms. Ann Knowles appears on p. 179]
 
	THE CHAIRMAN.  Thank you Ms. Knowles.  Mr. Jones, you are now 
	recognized.

STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, 
	NATIONAL ASSOCIATION FOR UNIFORMED SERVICES

	MR. JONES.  Chairman Buyer, Mr. Filner, Mr. Michaud, Members of 
	the Committee, Major General Bill Matz, NAUS President, sends his 
	regrets.  He is in Tampa, Florida, today at a meeting of the 
	Veterans Disability Benefits Commission where he serves at the 
	request of President Bush.
	On behalf of the nationwide membership of the National 
	Association for Uniformed Services, I am pleased to present our
	legislative priorities.  First and foremost, NAUS urges the 
	Committee�s support to ensure veterans have access to quality 
	health care at VA.  NAUS applauds the Committee in its effort 
	to lead Congress on the discovery of funding shortfalls found 
	in last year�s budget and for taking action to shore up VA�s
	financial troubles.
	NAUS also appreciates your work, Mr. Chairman, in seeing that 
	VA was exempted from the one percent across the board cut made 
	in appropriations for the current year.
	Mr. Chairman, the provision of quality timely care is 
	considered one of the most important benefits afforded veterans. 
	We urge the Committee to fully fund VHA and we endorse The 
	Independent Budget recommendation of $32.4 billion without 
	increased fees and co-pays for total medical care.
	Mr. Chairman, for several years certain veterans have been
	prohibited from enrollment in VA�s health care system under 
	a decision made by the Secretary on January 17, 2003.  NAUS 
	urges the Committee to review this policy and provide a measure
	of relief to allow at least medicare eligible veterans to gain
	access to VA�s prescription drug program.  As a result of VA�s 
	decision to restrict new enrollments, a great number of veterans,
	including medicare eligible veterans, are denied access to VA.
	NAUS recognizes that VA fills and distributes more than 100 
	million prescriptions annually to five million veteran patients.
	As a high volume purchaser of pharmaceuticals VA is able to 
	secure a significant discount on medication purchases.  
	Enrolled veterans can obtain prescription paying $8.00 for each 
	30 day supply.  However, veterans not enrolled for care before
	January 2003 are denied an earned benefit that similarly 
	situated enrolled veterans are able to use.  
	NAUS asks the Committee to consider legislation that would allow 
	medicare eligible veterans to get a break on prescription drug 
	pricing.  What we recommend is to give medicare eligible 
	veterans currently banned from the system and paying retail 
	prices, or using the newly established Part D program, access to
	the same discount provided VA in their purchases of 
	prescriptions.  Providing the discount would not cost the 
	government a cent.  Medicare eligible patients would pay the same
	price the VA pays.  And these veterans would see value restored 
	and returned in a benefit each earned through military service. 
	It looks like a win-win.
	Mr. Chairman, despite VA�s best efforts to deliver benefits to 
	entitled veterans, the workload of the Veterans Benefits 
	Administration continues to increase.  As of mid-February VBA
	had more than 500,000 compensation pension claims pending 
	decision, an increase of nearly 70,000 from this time last year.
	NAUS does not see the problem as something that cannot be 
	overcome.  A stronger VA budget would provide for the hiring 
	and training of claims adjudicators and the investment in 
	appropriate technology to overcome the backlog and get the 
	program back on track.
	Mr. Chairman, the House Veterans� Affairs Committee has an 
	excellent record of oversight on administrative efforts to 
	improve the seamless transition for service members as they
	leave military service and become veterans.  Providing a 
	seamless transition is especially important for the most 
	severely injured patients.  No veteran leaving military service
	should fall through the bureaucratic cracks in this transition.
	NAUS requests that the Committee continue to schedule oversight
	hearings to push for progress.  NAUS compliments VA and DOD for
	following through on establishing benefit representatives at 
	military hospitals.  This is an important step and can often 
	help reduce the amount of frustration inherent in the separation
	process.
	Mr. Chairman, our troops with limb loss is a matter of national
	concern.  Improved body armor, better advantages in battlefield
	medicines have reduced fatalities, however, injured soldiers 
	are coming back oftentimes with severe, grievous physical 
	losses.  NAUS encourages Congressional decision makers to 
	ensure that funding for VA�s prosthetic research is adequate 
	to support the full range of programs needed to meet current 
	and future health challenges facing wounded veterans.  The need
	is great.
	Lieutenant Colonel Paul Pasquina, chief of physical medical and
	rehabilitation at Walter Reed says, "About 15 percent of the 
	amputees at Walter Reed have lost more than one limb."  And 
	according to Lieutenant Colonel Jeffrey Gamble, chief of amputee
	clinic, about one-third of the amputations done on recently 
	injured service members have involved upper extremities because
	of the type of munitions used by our enemy.
	In order to help meet the challenge, VA research requires 
	funding for continued development of advance prostheses that 
	will perform more like normal limbs.  NAUS would also like to 
	see better coordination between VA and the Department of Defense
	Advanced Research Projects Agency in the development of 
	prosthetics that are readily adaptable to aid amputees.  NAUS 
	looks forward to working with you, Mr. Chairman, to see that
	priority is given for these brave men and women with special
	needs.
	Mr. Chairman, more than 50 years ago Army psychiatrists reported 
	that psychiatric casualties in combat are as inevitable as 
	gunshot and shrapnel wounds in warfare.  At VA Secretary 
	Nicholson reports VA is seeing about 12 percent of returning 
	troops for PTSD examination.  And about 40,000 OIF/OEF soldiers 
	are showing symptoms of PTSD and are currently in some process
	of treatment.
	Beyond the number of new veterans from OIF and OEF, VA provides 
	treatment for some type of mental health service to more than 
	833,000 of the nearly five million veterans who received VA 
	care in fiscal year 2004.  NAUS urges the Committee to push VA 
	to develop a working approach that leads to more effective early 
	intervention and to healing.  Secretary Nicholson said he 
	supports that in his testimony.
	NAUS appeals to the Committee on Veterans� Affairs to approve an
	annual COLA adjustment.  To prevent inflation from eroding 
	disability compensation and disability and indemnity 
	compensation.  We urge you, because this decision is in your 
	hands, to be generous and liberal in the cost of living 
	adjustment.
	NAUS thanks you, Mr. Chairman, for stating your interest in a 
	total force framework for a new GI Bill for education.  We look
	forward to working with you to develop a veterans education 
	assistance program that provides benefits based on a continuum 
	of service and includes members of the National Guard and 
	Reserve.
	We appreciate your leadership in traumatic injury insurance.  
	This new and very necessary program is much appreciated by those
	who actually need the funds.  These brave men and women and 
	their families deserve nothing less.  And we appreciate your
	effort on their behalf.  
	NAUS encourages the Committee to closely review permitting
	medicare eligible veterans to use their medicare entitlement for
	care at local VA medical facilities.  We support medicare 
	reimbursement.
	And Mr. Chairman, we ask the Committee to play an active role 
	in helping to move concurrent receipt forward.  We recognize 
	it�s not in your jurisdiction.  But we recommend the Committee 
	work to extend concurrent receipt to include individuals 
	medically discharged from service prior to achieving 20 years
	of service.
	Mr. Chairman, you and your Committee Members have made progress.
	We thank you and your excellent staff.  Again, NAUS deeply 
	appreciates the opportunity to present our Association�s 
	priorities on veterans� health and benefits.  Thank you, sir.
	[The statement of Mr. Rick Jones appears on p. 189]
 
	THE CHAIRMAN.  Thank you very much.  I will also bring to your 
	attention as I have done with other panels with regard to the
	general discharges.  You were present, I think, when you heard 
	me bring that to your attention.  I just want to make sure that 
	you take that back to your membership so that the Pentagon gets
	the right message on how these individuals should appropriately
	be handled.  Ms. Knowles.
	MS. KNOWLES.  Yes, sir.
	THE CHAIRMAN.  There is a reason we asked you to testify here 
	for your Association for the first time.  And you are absolutely 
	correct.  You and your membership are located in every county 
	in America and our territories.  And so you in a lot of
	circumstances are the very first person that they see.  And as
	we were trying to improve this seamless transition and move to
	a one IT architecture and you are part of this partnership.  
	Not only is it you, it�s the Veterans� Service Offices, and the
	state directors, and as we want to move to this architecture 
	there is this hesitation in the VA to include you as part of 
	our one architecture.  Do you sense that also?
	MS. KNOWLES.  Yes, sir.
	THE CHAIRMAN.  Yes.  So, I wanted you to come here today.  I was
	very interested in what your testimony was going to be.  I
	wanted the Committee to be able to hear it.  And I would like 
	for you to explore that a little more.  So the first question 
	would be, of your counties do you know how many counties in 
	America -- let me ask it this way -- are all county veteran 
	service offices computerized?
	MS. KNOWLES.  No, sir.  They are not.  Some of your smaller 
	counties, Mississippi is one that we work with a lot, there is 
	very few in that state that have computers.  They have some.  
	They are, you know -- as I said, the veterans service office is 
	the bare bones budget and the counties give the budget.  So we 
	are not high on the priority list to get the equipment.  That is
	why we do partner with the state.  And that is why we feel in 
	order to move forward we need some help from the VA, 
	standardized training and electronic equipment in our counties.
	THE CHAIRMAN.  Mr. Basher, how would you respond to the counties
	out there that are saying they are not being properly funded?
	MR. BASHER.  I think that they run the gambit.  Some are very 
	well resourced.  Some, like down -- especially down in the south,
	they have very, very limited resources.  I know most state 
	governments struggle to make sure that those counties have 
	whatever resources are available.  I know that in some cases 
	even VA works to make surplus equipment available to county 
	organizations and service organizations.  But as Ms. Knowles
	points out, there is no uniform standards.  There is no
	performance measures.  So it�s very, very hard to capture this 
	data.
	THE CHAIRMAN.  All right.  But as we move toward standardization,
	the goal would be to seek that you be incorporated under the 
	one architecture.  You are the individual, your memberships are
	the ones that are in close proximity to our governors.
	MR. BASHER.  Yes.
	THE CHAIRMAN.  Right?
	MR. BASHER.  Yes, sir.
	THE CHAIRMAN.  So the governors need to make sure they have you 
	in the budgets.  County commissioners need to make sure that they
	have you in the budgets.  Right?  I mean we all have to, we here 
	in Congress, we end up dealing with all these shortfalls, whether
	it�s a township fire department in Homeland Security; whether 
	it�s making sure that they have access to bulletproof vests.  I 
	mean you can go down the list here and I just want to make sure 
	that we are going to be able to pull all this together.  But too
	often there is this, well, we will get the federal government to
	pay for it too.  And states and localities need to make sure that
	they step up to the plate here in their partnership.  That�s why 
	I wanted to make sure that we have a communication between the
	counties and the states.  President Rowan.
	MR. ROWAN.  Yes.  I would like to just add to that too.  In your 
	discussion, we support it all the time at the state level and in 
	the county levels in trying to get their budgets in hand.  And 
	we have been trying to explain to these elected officials that in
	fact this is an economic development program to them.  When each
	of these service offices and each of these counties and state 
	agencies do their job, they bring federal dollars into those 
	districts.  And just as you Congress members go back and forth 
	trying to bring federal dollars into your district in every way
	you can, these programs are probably one of the most efficient 
	and certainly one of the nicest ways to bring federal dollars 
	into their district by helping those people who actually live 
	there.
	One of the other things I might point out, however, that disturbs 
	me in the architecture discussions you had.  A year ago I got new
	computers for my service officer in the VA regional office in 
	New York.  And we went out to talk to the computer people in the
	VA about what we should go buy.  They said "Well make sure you 
	get it that it has Windows 2000."  I said, well this is 2004 -- 
	this is 2005.  Why don�t I get Windows XP?  "Oh, no, we can�t 
	handle that.  You�ve got to get Windows 2000."  And I am sitting 
	here in 2005 saying why am I getting 2000 when I should be 
	getting XP which is the newest version and the VA wasn�t up to 
	snuff.
	So I hope that when we move forward that we all move forward and
	we get up to the modern day technology and that the VA comes into
	the fold as well.
	THE CHAIRMAN.  That will be part of the discussion that will 
	begin at 3:00 o�clock today on the budget.  To make sure that 
	the CIO, has been empowered, with a lot of support on a 
	bipartisan basis from this Committee to do this.  And now as we
	move that hardware over to him, we want to make sure that he 
	gets those 127,000 computers.  You know what I mean?  We are 
	going to be doing this kind of stuff.  So this is going to be a 
	substantial investment.
	But I think it will pay great dividends.  I am most hopeful.  
	But we may have this circumstance whereby we are going to 
	modernize on the hardware on the VA side and then we are going 
	to turn to the State directors and to the counties.  So I just 
	want to make sure we are all getting on the same page.
	Mr. Lopez, please work closely with Dr. Boozman and Ms. Herseth
	with regard to your policy initiative which you testified on.  
	I would encourage that.  I will yield right now -- I have one --
	all right.  Mr. Filner, you are recognized.
	MR. FILNER.  Again, thank you for your testimony.  Your passion 
	for serving our veterans is very noticeable, and we appreciate 
	that.  I think you heard me say before that the budget proposal
	from the Administration and probably what this Committee will
	officially submit is an insult to the veterans and does not 
	handle virtually any of the issues that you discussed today. 
	I wish we would have a more public debate on that.  The 
	Chairman and I differ on our view of what the VA should be 
	doing.  And we should debate that.
	We have a different view of the budget.  This Committee for 
	the second year in a row will not have a public vote on the
	budget that we are sending to the House.  We do not have the 
	thousands of veterans from your organization watching what we 
	do.  I think this is all part of an explicit plan to keep that
	knowledge from as many people as possible.  I think it�s a 
	disgrace that we�re operating in that way.
	You mentioned outreach.  And I am talking general terms.  We 
	talked about $4.2 billion short or something.  That doesn�t 
	get to the issues that you all talked about.  We are not doing
	the outreach that you all want.  I will just use the PTSD 
	situation that many of you are familiar with and you all know.
	The Vietnam Vets are too well informed about what happens when 
	we don�t recognize mental conditions as a VA responsibility when 
	our vets come home.  One-half of the homeless on the street 
	tonight are Vietnam Vets.  We did something wrong there.  We are
	in danger of repeating the mistake with our young men and women
	coming back from Iraq and Afghanistan.  I will wait until you 
	finish, Mr. Chairman.
	THE CHAIRMAN.  Cell phones are not permitted in the Committee 
	room.  Absolutely not.
	MR. FILNER.  Up to 4050 of the men and women who are coming back 
	from Iraq and Afghanistan have been estimated to have PTSD. And 
	yet, we do not have either the resources or, more importantly, 
	the outreach to the families involved to get them the treatment 
	that will prevent what the Vietnam Vets have seen and see every
	day.
	We don�t have outreach to the families so they recognize the
	behaviors.  We had testimony here from an Army Captain, whose 
	husband returned from Iraq, who exhibited all the classic 
	symptoms: domestic violence, nightmares, irrational behaviors,
	and they had no idea what was going on.  He eventually
	committed suicide.  They should know what was going on, the
	children and the family, so that they could help get treatment.
	We should have mandatory evaluations when our young men and
	women come back.  Too many of those people think that if they 
	admit some mental situation, it hurts their career or hurts 
	their self esteem or other people�s view of them, when we know 
	mental conditions can be more difficult than actual physical 
	conditions to deal with.
	So we are not doing the outreach.  In fact we are doing it in
	reverse.  Our VA has instructed people in the field not to 
	talk about enrollment procedures and what benefits are 
	available.  We glory in the fact that we are going to kick 
	hundreds of thousands of people out of VA and TRICARE to save 
	money.  So we are doing just the reverse.  And it shows up in
	the PTSD situation.  We need outreach to families.  We need
	evaluations of the young men and women coming back.  We need
	the resources in our local hospitals.  We have already 
	reports of the same things that happened with Vietnam Vets:
	homelessness, loss of jobs, suicides, domestic violence.  
	And we know how to deal with it.  That is the tragic thing.  
	We know how to deal with it!  We need the outreach.  And the 
	cost of that, I don�t care what it is, we should be paying it 
	because we can�t afford not to.  It should be part of the cost
	of the war and we just get in worse problems down the line if
	we don�t handle it now.
	So thank you.  And I hope you will continue to press our 
	nation on doing what it should do for our brave veterans, 
	especially those coming home today.
	THE CHAIRMAN.  Thank you, Mr. Filner.  Mr. Michaud, you are 
	now recognized.
	MR. MICHAUD.  Thank you, Mr. Chairman.  I too want to thank 
	the panel for your testimony today.  I really appreciate it 
	and I can associate myself with a lot of your comments, 
	whether it�s prosthetic research, PTSD, the fact that taking
	care of our veterans should be part of he cost of the war, 
	which I agree with 100 percent.  So I really appreciate your
	taking the time.  I just have a couple of questions, 
	Mr. Chairman.  One actually is to Ms. Knowles.  That is the 
	first time I heard of your organization to be quite frank.  
	And unless it�s called something different in the State of
	Maine, we have a program in Maine called Operation I Served. 
	I was wondering does your organization call it the same in 
	each state?  And I assume you are located in every state.
	MS. KNOWLES.  No, sir.  We are not.  Maine is not a member.
	We would really love to have Maine as a member of our 
	association.
	MR. MICHAUD.  Great.  That is probably why I haven�t heard of
	you.
	MS. KNOWLES.  That is right.
	MR. MICHAUD.  Thank you.  My second question is to Mr. Basher.
	When your organization testified before this Committee last
	year, we discussed a budget proposal that would have reduced
	approximately 85 percent of VA per diem payments to states 
	veterans� home.  I and many of this Committee were very 
	concerned about the impact that last year�s proposal would 
	have had on residents of the state homes.  The budget 
	consideration that we are considering today does not appear 
	to target the state homes in the same way.  My question to
	you is what is the most important budget issue for the state 
	veterans� homes nationally?
	MR. BASHER.  If I had to pick the top priority it would be 
	exactly that.  The per diem and stability and predictability 
	of that.  Recognizing that if you change the rules in the middle
	of the game we risk going down a very slippery slope of the 
	whole system coming unglued from unintended consequences.  Those
	homes are a partnership between state and local governments. 
	State governments supports it, but without that per diem 
	payment it doesn�t make it financially tenable.
	If it becomes financially untenable then those homes will go
	out of business.  And if they do go out of business then they 
	are required to revert to federal ownership and also the states
	are liable to repay the federal funds that have advanced for 
	them.  So I don�t think any of us in this room want that to
	happen.  But what we need to do is continue to work together, 
	make a stable, predictable system that allows state and federal
	government to partner in a way to deliver long-term care, 
	understand who those people are we are taking care of, and make 
	sure it�s done in a most cost effective manner.  So, long
	answer, short question, but, it�s important, sir.  Thank you.
	MR. MICHAUD.  Thank you.
	MR. ROWAN.  Can I add something to that too?  It seems to me 
	that when we have those situations, if these homes were to 
	disappear all we would be doing is be transferring these 
	individuals in many cases over to medicaid.  Because the reality
	is that is where they would end up.  So they would just be 
	switched into a different pot of money coming out.  And usually
	a bigger pot coming out of the federal budget at a higher cost.
	These state homes run very efficiently as do the VA and all 
	the other veterans programs we have.  So the longer we can keep
	these things in veterans run programs we are much better off. 
	All of us.
	MR. MICHAUD.  Well, I appreciate your comment.  And I also 
	agree.  I can only speak for the state veterans� homes in the 
	State of Maine having served in the legislature on the
	Appropriations Committee when we worked with the folks in Maine
	on the state veterans homes.  And you are absolutely right, we
	get a good bang for our buck as far as how they are operated 
	and the cost efficiency.
	So, once again, I want to thank each of you for coming here 
	today.  I really appreciate your comments and I yield back the 
	balance of my time, Mr. Chairman.  Thank you.
	THE CHAIRMAN.  Thank you, Mr. Michaud.  Mr. Michaud is a very 
	valuable member of the Committee serving as Ranking Member on 
	the Health Subcommittee.  The timely counsel that 19 veterans 
	service organizations and military service organizations have
	given this Committee has been valuable.  And it�s being done 
	prior to formation of the budget, which has never been done
	before.  It sounds like common sense, doesn�t it?  We can either
	take your advice and counsel after we formulate the budget or we 
	can take it before we do the budget.  So this way was pretty 
	basic.
	And I know that some of the organizations, have members that are
	coming in March.  Some of you may even have.  I think that is 
	wonderful.  What we have done here on the Committee is we have 
	opened up the access.  That has never been done before.  And 
	it�s valuable.  It�s helpful.  It�s insightful.  And not only 
	are we going to do it now, we are going to bring you back in 
	September.  And we are going to do this again in September.
	And we are going to mirror exactly what they do on the Armed 
	Services Committee.  I always enjoyed it.  This was so helpful
	and enriching.  We would bring the Chairman and the Joint 
	Chiefs of Staff in twice, once to formulate the budget, and 
	then we would do a look back, look ahead in the fall.  And that
	form of oversight was extremely powerful because then we were 
	able to say, okay, how are we going.  It�s the monitoring.  And
	are we on track, you know.  As we are then moving into the
	formulation of then the budget.
	So what the Committee has done despite a lot of rhetoric that 
	has been out there, we have sought to increase your access,
	increase your counsel to this Committee, and that has been 
	accomplished.  And I want to thank all of you.  And I want to 
	thank your membership.
	So a lot of things historically have happened.  We listened to 
	your counsel ahead of time.  Ms. Knowles, your organization has 
	never testified in this capacity before.  And the Vietnam 
	Veterans of America have never been even offered the opportunity
	to testify on the nation�s budget, sitting right next to the 
	American Legion.
	So I want to thank all of you for your testimony.  I will finish
	with Mr. Jackson.  You have a meeting with Colonel Lariviere.
	MR. JACKSON.  Thank you.
	MR. CHAIRMAN.  Well, wait a minute.  I, Congressman Salazar and
	Congresswoman Brown have written statements for the record. 
	Hearing no objection, so ordered.
	[The statement of Mr. Salazar appears on p. 70]
 
	[The statement of Ms. Brown of Florida appears on p. 63]
 
	The Chairman.  The hearing is now concluded.  Thank you very
	much.
	[Whereupon, at 1:45 p.m., the Subcommittee was adjourned.]
    

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
